<html>
<title> - ENERGY CONSUMERS RELIEF ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                  ENERGY CONSUMERS RELIEF ACT OF 2013

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 12, 2013

                               __________

                           Serial No. 113-30




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

82-183                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
PHIL GINGREY, Georgia                JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana                  Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
CORY GARDNER, Colorado               BRUCE L. BRALEY, Iowa
MIKE POMPEO, Kansas                  PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               PAUL TONKO, New York
JOSEPH R. PITTS, Pennsylvania        EDWARD J. MARKEY, Massachusetts
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
BILL CASSIDY, Louisiana              MICHAEL F. DOYLE, Pennsylvania
PETE OLSON, Texas                    JOHN BARROW, Georgia
DAVID B. McKINLEY, West Virginia     DORIS O. MATSUI, California
CORY GARDNER, Colorado               DONNA M. CHRISTENSEN, Virgin 
MIKE POMPEO, Kansas                      Islands
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................    11
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................    12
    Prepared statement...........................................    13
Hon. Bill Cassidy, a Representative in Congress from the State of 
  Louisiana, opening statement...................................
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    14
    Prepared statement...........................................    16

                               Witnesses

Paul Cicio, President, Industrial Energy Consumers of America....    23
    Prepared statement...........................................    25
Brendan Williams, Vice President, Advocacy, American Fuel & 
  Petrochemical Manufacturers....................................    30
    Prepared statement...........................................    32
William N. Rom, Professor of Medicine and Environmental Medicine, 
  NYU School of Medicine, on Behalf of the American Thoracic 
  Society........................................................    47
    Prepared statement...........................................    49
Rena Steinzor, Professor of Law, University of Maryland, and 
  President, Center for Progressive Reform.......................    57
    Prepared statement...........................................    59
Anne E. Smith, NERA Economic Consulting..........................    71
    Prepared statement...........................................    73
Scott H. Segal, Director, Electric Reliability Coordinating 
  Council........................................................   175
    Prepared statement...........................................   177

                           Submitted Material

Discussion draft.................................................     5
Statement of the Environmental Protection Agency, submitted by 
  Mr. Whitfield..................................................    18
Letter of April 11, 2013, from the Natural Resources Defense 
  Council to the Subcommittee, submitted by Mr. Rush.............   213
Statement of the Society of Environmental Journalists, submitted 
  by Mr. Whitfield...............................................   217
Article entitled, ``EPA: Agency comes under fire for `closed, 
  opaque' press policy,'' by Emily Yehle, E&E reporter, April 11, 
  2013...........................................................   218

 
                  ENERGY CONSUMERS RELIEF ACT OF 2013

                              ----------                              


                         FRIDAY, APRIL 12, 2013

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:35 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Hall, Shimkus, 
Terry, Burgess, Latta, Cassidy, Olson, McKinley, Gardner, 
Pompeo, Kinzinger, Griffith, Upton (ex officio), Rush, 
McNerney, Tonko, Green, Capps, Barrow, and Waxman (ex officio).
    Staff present: Nick Abraham, Legislative Clerk; Charlotte 
Baker, Press Secretary; Allison Busbee, Policy Coordinator, 
Energy and Power; Patrick Currier, Counsel, Energy and Power; 
Tom Hassenboehler, Chief Counsel, Energy and Power; Mary 
Neumayr, Senior Energy Counsel; Andrew Powaleny, Deputy Press 
Secretary; Jeff Baran, Democratic Senior Counsel; Alison 
Cassady, Democratic Senior Professional Staff Member; Greg 
Dotson, Democratic Staff Director, Energy and Environment; and 
Caitlin Haberman, Democratic Policy Analyst.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call the hearing to order 
this morning. And I certainly want to welcome the panel members 
who were braving the weather to get here this morning. We 
appreciate that. Our ranking member Mr. Rush has been caught in 
traffic and is on his way, and when he gets here I am sure he 
will want to give an opening statement as well.
    But today's hearing, we are going to be focusing on the 
Energy Consumers Relief Act of 2013, which was introduced by 
our colleague Mr. Cassidy, who is a member of this committee. A 
couple of days ago we had a debate on the Keystone pipeline; we 
had a hearing on the Keystone pipeline, which I might say the 
American people in a recent Pew poll showed that they support 
by a margin of 66 percent to 23 percent. And I think during 
that hearing, it really brought to the focus two different 
views of the way we should be proceeding in developing energy 
in America.
    One view supported by many people in America, including 
some of our Democratic colleagues, view climate change as the 
most important issue facing mankind. And they support more 
mandates and more regulations relating to energy, forcing 
energy cost upward. They support new energy taxes and a strong 
cap-and-trade system.
    Another vision supported by many in this committee is that 
we want a pathway to energy self-sufficiency focused on 
maximizing abundant, affordable, and diverse energy resources, 
reducing emissions through technological development, economic 
competition, and market-based efficiencies. Now, I would say 
that in America we don't have to take a backseat to anyone 
about being focused on the environment. Our CO<INF>2</INF> 
emissions are the lowest that they have been in 20 years.
    EPA reports that total emissions of toxic air pollutants 
have decreased by approximately 42 percent between 1990 and 
2005. EPA has said that since 1990, nationwide air quality has 
improved significantly for the six common air pollutants. 
Between 1980 and 2010, total emissions of the six principal air 
pollutants have dropped by 63 percent.
    Now, I don't know if any of you focused on this, but next 
year, the Dakota Prairie refinery is going to open up in North 
Dakota. This is the first new refinery in America since 1976. 
Now, the reason that this has happening is that because of 
fracking on nonfederal lands in the Bakken formation, there is 
a bountiful production of this oil and a refinery is absolutely 
necessary. Now, what many people don't know is that the tribes 
have submitted an application to build a refinery in North 
Dakota over 10 years ago, and it has taken 10 years to obtain 
this permit.
    And while everyone is excited about this refinery opening 
up, the problem is that it has been dramatically downsized 
because everyone is concerned about the new greenhouse gas rule 
that is expected to be coming out of EPA. So on one side, 
people are excited; on the other side it is being artificially 
remaining a low-scale plant.
    Now, the great thing about this development in North Dakota 
and other parts the country is that in North Dakota, the 
unemployment rate today is 3.2 percent, the lowest in the 
country. And since 2009, employment in North Dakota has 
increased by 60 percent. So I think those two visions of 
America is what we are really talking about today. We have an 
opportunity to be energy efficient. We do not have to be 
dependent upon the Middle East or anyone else. As a matter of 
fact, we are the number one oil-producing country in the world 
today, having passed Saudi Arabia in late 2012.
    Now, today, we are going to take up a bill that would 
require EPA to be more transparent. There was a news release 
yesterday put out by the Society of Environmental Journalists 
that said that EPA is one of the most closed, opaque agencies 
in the Federal Government. And that is the view of many of us 
as well.
    So the legislation that Mr. Cassidy is introducing today 
simply requires a more thorough review of cost and the impact 
on jobs, energy prices if the overall cost of the regulation 
will exceed $1 billion. So I think this is a very important 
piece of legislation and we look forward to your testimony 
about it.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    On Wednesday, when the rest of us were gathered to talk 
about increasing U.S. energy security through legislation that 
would finally approve the 1,666 day-long delayed Keystone 
Pipeline, a pipeline that according to Pew, the American public 
supports by a margin of 66-23 percent, my colleagues, as they 
have done in every other hearing this subcommittee has 
conducted so far this Congress, were asking to debate the 
science of climate change.
    You couldn't paint a picture that is more in contrast to 
two visions for the future. Some of my colleagues on the other 
side of the aisle vision a future, which they claim is driven 
by scientific models, of continued demand destruction mandates, 
new energy or carbon taxes, and back door cap-and-trade 
regulations. While our vision, a pathway to energy self-
sufficiency, is focused on maximizing abundant, affordable, and 
diverse energy resources. Reducing emissions through 
technological development, economic competition, and market-
based efficiencies, things that allow our economy and jobs to 
prosper, are very different from the solutions the current EPA 
and my colleagues on the other side of the aisle recommend.
    The Waxman-Markey cap-and-trade bill failed in the 
Democratically-controlled Senate for a reason, and it is 
because consumers and the American public understand that we 
don't have to choose between the environment, and jobs and the 
economy with a command-and-control Washington-centric energy 
vision. Policies that increase energy costs on consumers only 
seek to drive more innovation and jobs offshore. And I would 
note, since the time of that bill's failure, we have seen 
innovation and job creation flourish in the U.S. energy sector, 
but the EPA is now regulating what the Obama administration 
failed to legislate and their regulatory assault on coal is 
only beginning to be realized.
    We are now at the cusp of an industrial and manufacturing 
renaissance--- but this future can only be realized if we are 
able to continue to successfully harness our resources and 
maintain a diverse energy portfolio. New taxes, mandates, and 
back-door cap-and-trade policies only hold us back--and we can 
look to Europe and other economies as a real world case study 
on where that path takes us.
    We are here today to debate a bill that seeks to keep us on 
this path to self-sufficiency by putting some inter-agency 
checks and balances on what many view as an agency who is 
single handedly controlling nearly all of the energy and 
environment issues facing our nation. The number of major new 
rules is like nothing I have seen before and is doing serious 
economic damage by reducing energy supplies, raising energy 
prices, risking job growth, jeopardizing competitiveness, and 
compromising reliability. It is time to restore balance to 
EPA's rulemaking process, and that is the goal of the ``Energy 
Consumers Relief Act of 2013.''
    Specifically, the ``Energy Consumers Relief Act'' would 
require that, prior to finalizing a rule estimated to cost at 
least a billion dollars; EPA must first submit a concise cost 
analysis to Congress. This analysis will provide the public 
with greater transparency by requiring the inclusion of such 
things as the impact of the rule on gasoline or electricity 
prices, as well as any potential job losses.
    At the same time, the rule would be subject to an 
independent analysis led by Department of Energy in 
consultation with the Federal Energy Regulatory Commission and 
the Energy Information Administration. DOE would then make an 
initial determination whether the rule increases energy prices 
for consumers, including low-income households, small 
businesses, and manufacturers.
    Then, if the Secretary of Energy determines the rule would 
raise energy prices or impact fuel diversity, he is required to 
conduct a more extensive analysis in consultation with the 
Secretaries of Commerce and Labor and the Administrator of the 
Small Business Administration to determine if the identified 
energy impacts will have significant adverse effects on the 
economy, including impacts on jobs and economic growth. If the 
effects are in fact significant, then EPA may not proceed with 
the proposed rule.
    And of course, this bill would increase the scrutiny of 
EPA's assault on coal. We have seen a number of costly rules 
affecting coal-fired electricity generation, and many more are 
in the works. But the agency's own discussion of the impacts of 
these rules on electricity costs, reliability, coal-related 
jobs, and American competitiveness has been woefully 
inadequate. Indeed, we are already seeing coal-fired power 
plant shutdowns at a much faster pace than anything EPA ever 
suggested. Under the ``Energy Consumers Relief Act,'' these 
rules would finally be getting the cumulative analysis they 
warrant.
    Overall, this bill would empower DOE to take a commonsense, 
look-before-you-leap approach to EPA's energy-related billion 
dollar rules. And given the prolonged weakness in the economy 
and stubbornly high gasoline prices and unemployment rates, 
it's a level of scrutiny that is long overdue and critical.

                                #  #  #

    [H.R. -------- follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Whitfield. And at this time, I will recognize the 
gentleman from Illinois, Mr. Rush, for his opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman. And let me 
begin by commending you for agreeing at our last panel on 
Wednesday to hold a hearing hopefully sometime in the very near 
future and dedicated solely for the purpose of hearing from 
scientific experts on the science of climate change. Mr. 
Chairman, as you know from 24 letters that Ranking Member 
Waxman and I have sent to you and Chairman Upton, since May 
2011, we have requested a hearing on this matter.
    Climate change is an issue that the minority side takes 
very seriously and we believe that hearing from actual 
scientists and climatologists rather than industry 
representatives will benefit and inform every member of this 
subcommittee.
    Mr. Chairman, we all understand that just because one might 
not like what the facts or the science is telling us does not 
mean that we can simply ignore science or facts or wish them 
away. Last year's record temperatures, record droughts, record 
wildfires, and record levels of flooding prove this point. 
Still, we are here holding yet another hearing on yet another 
Republican bill designed to gut the Clean Air Act and tie EPA's 
hands and prohibit this agency from doing exactly what it was 
established to do. And that is to protect the public.
    Mr. Chairman, we know that the EPA does not simply propose 
regulations willy-nilly, or just pull them out of thin air. In 
fact, in a rule that EPA has proposed has been mandated by law 
specifically to protect the public health by ensuring that all 
citizens have access to clean air, land, and water. My 
constituents do not always have the means and wherewithal to 
hire expensive lobbyist to influence the debate in the Congress 
in order to enact policies favorable to their futures, nor 
their financial interest.
    So it is imperative that we allow the EPA to act as an 
impartial referee and ensure that the playing field is level 
for all Americans. This bill before us is flawed in so many 
ways but one of its biggest deficiencies is that it will give 
the Secretary of Energy unprecedented authority to effectively 
veto public health regulation if the Secretary found that the 
rule will cause ``any significant, adverse effects to the 
economy.''
    The analysis called for in this legislation is so skewed 
that even if the economic benefits of a rule dramatically 
outweigh any significant adverse effects to the economy or 
rather to industries' profits, the rule will still be blocked.
    Mr. Chairman, I find it is curious that my colleagues on 
the other side of the aisle are quick to point out that carbon 
emissions in the U.S. are down to mid-1990 levels but refusing 
to acknowledge that the EPA regulation implemented under the 
Clean Air Act have played a key role in reducing harmful air 
pollutants by 60 percent, while at the same time our economy 
has grown over 200 percent.
    Mr. Chairman, my Republican colleagues, you can't have it 
both ways and attack the EPA for issuing regulations while at 
the same time pointing to progress that we have made as a 
country, both environmentally and economically, due in large 
part to these very same EPA rules.
    The bill today is simply another sham that may serve as a 
good messaging piece for the majority and its allies but will 
never, ever see the light of day in the Senate and will never, 
ever be signed into law by President Obama. But if getting 
through today's hearing will help bring us a step closer to 
holding a real meaningful, a real climate change hearing where 
we can really tackle the issues that most Americans truly feel 
about it, then, Mr. Chairman, I say let's begin the hearing.
    Thank you and I yield back the balance of my time.
    Mr. Whitfield. Thank you very much.
    At this time I recognize Mr. Upton, chairman of the full 
committee for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    You know, common sense dictates that we should fully 
understand the cost of new regs to jobs and the economy before 
they are implemented, especially the highest cost regs as the 
Nation continues to endure high energy prices and unemployment. 
Maybe the EPA doesn't present a full economic analysis now 
because they know the public would not like what it hears. But 
transparency and regulatory costs is a reasonable expectation. 
And the Energy Consumers Relief Act will make sure that the 
EPA, in fact, provides it.
    Having worked in President Reagan's OMB, I have long been 
interested in the proper oversight of federal regs, and I 
cannot think of a set of regs more in need of additional 
oversight that EPA's energy-related rules.
    I want to commend Bill Cassidy for his Energy Consumers 
Relief Act, which is a commonsense solution that bolsters EPA 
transparency and puts American consumers first. For an agency 
that was never granted any energy policy-setting authority, 
EPA, nonetheless, has taken charge of directing the Nation's 
energy agenda. They are seeking to regulate where they have 
been unable to legislate, evidenced by EPA's avalanche of coal 
regs seeking to effectively regulate out of existence the use 
of abundant resource without any regard for electricity prices, 
reliability, or jobs.
    At a time when most Americans haven't seen gasoline under 
$3 a gallon in years, we now have a proposed Tier 3 gas rule 
that would put forward upward pressure on prices at the pump, 
creating a disproportionate hardship for the country's most 
vulnerable, those most likely not to be able to afford those 
higher prices.
    But gas prices aren't alone in being stubbornly high. With 
just 88,000 jobs created last month, it looks like 2013 is 
going to be yet another year with unemployment staying well 
above 7 percent. The Energy Consumers Relief Act gives the 
Department of Energy the lead role in conducting a multiagency 
analysis of EPA's energy-related rules estimated to cost at 
least $1 billion, $1 billion.
    No longer will the impacts of these measures on energy 
prices, jobs, or manufacturing competitiveness be a secondary 
consideration that is hidden from view. It is now more 
important than ever to weigh the consequences of the EPA's 
actions. The U.S. is on a pathway to unprecedented energy self-
sufficiency, a pathway that has seen technology and innovation 
in the energy sector drive new energy resource abundance, 
diversity, and affordability, all for the benefit of consumers. 
Without the additional checks and balances this bill provides, 
the pathway will remain threatened by an agency that sometimes 
fails to provide an adequate and complete picture of the 
sweeping cumulative impacts of its own regs.
    And I would yield to other members of the committee that 
might--Mr. Cassidy, I yield the balance of my time.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Common sense dictates that we should fully understand the 
cost of new regulations to jobs and the economy before they are 
implemented--especially the highest-cost regulations as the 
nation continues to endure high energy prices and unemployment. 
Maybe the EPA does not present a full economic analysis now 
because they know the public would not like what it hears. But 
transparency in regulatory costs is a reasonable expectation, 
and the Energy Consumers Relief Act will make sure the EPA 
provides it.
    Having worked in President Reagan's Office of Management 
and Budget, I have long been interested in the proper oversight 
of federal regulations. And I cannot think of a set of 
regulations more in need of additional oversight than EPA's 
energy-related rules. I commend Rep. Bill Cassidy for his 
Energy Consumers Relief Act, which is a commonsense solution 
that bolsters EPA transparency and puts American consumers 
first.
    For an agency that was never granted any energy policy 
setting authority, EPA nonetheless has taken charge of 
directing the nation's energy agenda. They are seeking to 
regulate where they have been unable to legislate, evidenced by 
EPA's avalanche of coal regulations seeking to effectively 
regulate out of existence the use of an abundant American 
resource without any regard for electricity prices, 
reliability, or jobs.
    At a time when most Americans haven't seen gasoline under 
$3.00 a gallon in years, we now have a proposed Tier 3 gasoline 
rule that would put further upward pressure on prices at the 
pump, creating a disproportionate hardship for the country's 
most vulnerable. But gas prices aren't alone in being 
stubbornly high. With just 88,000 jobs created last month, it 
looks like 2013 is going to be yet another year with 
unemployment staying well above 7 percent.
    The Energy Consumers Relief Act gives the Department of 
Energy the lead role in conducting a multiagency analysis of 
EPA energy-related rules estimated to cost at least one billion 
dollars. No longer will the impacts of these measures on energy 
prices, jobs, or manufacturing competitiveness be a secondary 
consideration that is hidden from view.
    It is now more important than ever to weigh the 
consequences of EPA's actions; the U.S. is on a pathway to 
unprecedented energy self-sufficiency-a pathway that has seen 
technology and innovation in the energy sector drive new energy 
resource abundance, diversity and affordability, all for the 
benefit of consumers. Without the additional checks and 
balances this bill provides, this pathway will remain 
threatened by an agency that fails to provide an adequate and 
complete picture of the sweeping cumulative impacts of its own 
regulations.

                                #  #  #

  OPENING STATEMENT OF HON. BILL CASSIDY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Cassidy. Thank you, Mr. Chairman.
    I am offering the bill this week or next week. And the bill 
is actually about transparency.
    Dr. Rom, I read your testimony and it is all very nicely 
referenced, but there is nothing to prevent that from impacting 
or influencing or encouraging EPA to address the situation. All 
it is is going to require is transparency. Your article was so 
beautifully reference peer-reviewed. I will note that EPA's 
work is not peer-reviewed. That is not me saying it; it is 
actually the National Academy of Science, which found on 
something regarding formaldehyde, that the draft assessment has 
not adequately supported its conclusions et cetera, et cetera, 
et cetera. You would never accept EPA's document in a peer-
reviewed journal.
    With that said, EPA science can be specious. So this is 
about transparency. And the stakes are high. People are losing 
their jobs over specious science. Now, maybe the science is 
good, and maybe the science is not, but I see nothing wrong 
with transparency and accountability. Why should the EPA be a 
dictator over our lives? Why shouldn't the EPA answer to 
somebody?
    Ultimately, Mr. Rush spoke about how folks back home don't 
have high-powered lobbyists. I totally agree. So therefore, it 
is incumbent upon us to make sure that every bureaucracy has 
someone to whom they are accountable. In this case it is the 
same administration. We would be saying that President Obama 
appointed somebody who is going to deep-six his environmental 
agenda if he was the Department of Energy Secretary, or if she 
was. I don't think that is very practical, very reasonable, or 
very likely.
    The fact is that everybody should be accountable. There are 
an incredible number of jobs on the line here and the science 
at times has not been adequate. So therefore, I see nothing 
wrong with putting in transparency for those thousands, 
millions of Americans who cannot afford a lobbyist but whose 
livelihood may be threatened by dictatorial powers which have 
no accountability.
    Thank you, I yield back.
    Mr. Whitfield. Thank you.
    At this time I recognize the gentleman from California, Mr. 
Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman. When I woke up this 
morning I noticed it had been raining. I was pretty sleepy. I 
didn't really want to come to work, and there was a cost to me 
because I had to do a lot of things to get ready. But I didn't 
realize the benefits. And the benefit is to sit here at a 
hearing to talk about a bill that doesn't make sense. So if I 
knew the full facts, I could have weighed the costs and 
benefits. If I just looked at the costs, that would be one way 
to make a decision, but you should look at the costs and 
benefits.
    Anyway, this bill says we are not going to look at the 
costs and the benefits. We are only going to look at the costs. 
And if the costs are high, well, forget about it. But that 
doesn't make sense because a lot of regulations weigh costs and 
benefits and say that the benefits outweigh the costs.
    During the 1990s, a lot of people looked at regulations and 
they said, oh, we have got to have a cost-benefit analysis. 
Well, cost-benefit analysis is far from perfect. Important 
benefits can't always be reduced to a dollar figure. The 
estimates of compliance costs are frequently inflated. But 
cost-benefit analysis, at least attempts to capture both sides 
of the equation.
    The problem with this bill is it says that when EPA does 
this cost-benefit analysis, they should then be accountable to 
the Department of Energy to make the decision. Well, why? Why 
should the Department of Energy be superior to the 
Environmental Protection Agency? The benefits of most important 
rules dwarf the costs.
    Let me give you some examples. The benefits of the Mercury 
and Air Toxics Rules are between four and nine times greater 
than the costs. EPA's tailpipe standards for reducing carbon 
pollution produced net benefits to society of up to $451 
billion by saving car owners money at the gas pump. The 
benefits of these and other rules are huge.
    Faced with these facts, opponents of EPA rules now say we 
should simply ignore the benefits and consider only the costs. 
That is what the discussion draft before us requires. This is 
an extreme and nonsensical approach. Imagine applying this 
bill's premise to everyday decisions. Not my decision on 
whether to come this morning, but would somebody decide not to 
pay for a child's college tuition, even though college opens 
doors of opportunity? If we look only at the price of medical 
care and not its benefits, would we forgo medical care?
    Every day, Americans look at both the pros and cons of 
making even the smallest decisions. But this bill would require 
decision-makers in the Federal Government to look only at the 
downside of making critical investments to protect public 
health and the environment.
    This discussion draft is hopelessly flawed. It gives the 
Department of Energy a veto over EPA regulations. Is that 
giving one bureaucracy some accountability because it has to 
satisfy another bureaucracy which has an other purpose than 
environmental protection when the agency in charge of 
environmental protection, after weighing costs and benefits, 
decides to go forward with a regulation?
    This is an unprecedented intrusion on the authority of the 
EPA. It is not common sense. It is not providing transparency. 
It is providing barriers to do something to protect public 
health and the environment if there is a cost that the 
industries don't like. And therefore, the industries can simply 
go and stop regulations.
    Now, let's see this bill more in detail. It requires the 
Department of Energy to conduct a skewed analysis of only the 
costs of EPA rules without any consideration of the benefits. 
So if the Secretary of Energy determines that a rule will cause 
any ``significant adverse effects to the economy''--that means 
the cost--EPA would be blocked from finalizing its rule, after 
they went through a cost-benefit analysis, even if the economic 
benefits of the rule dramatically outweigh the costs.
    I have further comments in my opening statement that I 
would like to put in the record, but Mr. Chairman, the American 
people want us to solve problems not waste our time with 
partisan posturing, taking up nonsensical message bills that 
stand no chance of becoming law. This just deepens and 
justifies the cynicism of the American people. We have two 
problems within our committee's jurisdiction that are crying 
out for attention, cybersecurity and climate change. And 
instead, we are wasting our time telling people regulations are 
no good if special interests don't like it and they can 
convince the Department of Energy, which has no expertise on 
doing these regulations to be able to veto them if there is any 
cost whatsoever. I think this is a real waste of time and I 
wish I would have stayed in bed.
    [The prepared statement of Mr. Waxman follows:]

               Prepared statement of Hon. Henry A. Waxman

    National Defense Magazine recently examined the latest 
intelligence forecasts to identify the five biggest challenges 
to U.S. and global security in the coming decades. The Energy 
and Commerce Committee has jurisdiction to address two of the 
top five threats: climate change and cybersecurity.
    Today, the Subcommittee is ignoring these urgent threats in 
order to spend its time considering what can only be described 
as a dumb bill. This bill relies on an outlandish premise: that 
EPA's public health and environmental protections provide no 
benefits at all to the American people.
    During the 1990s, opponents of EPA rules saw cost-benefit 
analysis as a way of weakening public health and environmental 
protections. Cost-benefit analysis is far from perfect. 
Important benefits cannot always be reduced to a dollar figure. 
And the estimates of compliance costs are frequently inflated. 
But cost-benefit analysis at least attempts to capture both 
sides of the equation.
    The problem for opponents of EPA's public health rules is 
that the benefits of the most important rules dwarf the costs. 
The benefits of the mercury and air toxics rule are between 
four and nine times greater than the costs. EPA's tailpipe 
standards for reducing carbon pollution produce net benefits to 
society of up to $451 billion by saving car owners money at the 
gas pump. The benefits of these and other rules are huge.
    Faced with these facts, opponents of EPA rules now argue 
that we should simply ignore the benefits and consider only the 
costs. That's what this discussion draft requires. It is an 
extreme and nonsensical approach. Imagine applying this bill's 
premise to everyday decisions. You would choose not to pay your 
child's college tuition, even though college opens doors of 
opportunity. You would look only at the price of medical care, 
not its benefits.
    Every day, Americans look at both the pros and cons of 
making even the smallest decisions. But this bill would require 
decision-makers in the federal government to look only at the 
downside of making critical investments to protect public 
health and the environment.
    The discussion draft is hopelessly flawed. It gives the 
Department of Energy (DOE) a veto over EPA regulations. This is 
an unprecedented intrusion on the authority of EPA.
    And it then requires DOE to conduct a skewed analysis of 
only the costs of EPA rules without any consideration of the 
benefits. If the Secretary of Energy determines that a rule 
would cause any ``significant adverse effects to the economy,'' 
EPA would be blocked from finalizing the rule--even if the 
economic benefits of a rule dramatically outweigh the costs. 
This gives the Secretary of Energy authority to block EPA 
public health protections that are required by law.
    Even if the Secretary of Energy ultimately decides that the 
rule does not hurt the economy, this new process could 
indefinitely delay important public health protections. The 
bill bars EPA from finalizing a rule before DOE completes its 
analysis. But it establishes no deadline for DOE to act and 
provides no resources to DOE to undertake these analyses.
    Moreover, this bill simply adds more bureaucracy to the 
rulemaking process. Numerous statutes and executive orders 
already require EPA to conduct rigorous cost-benefit analysis 
of its rules, which are subject to public comment and extensive 
interagency review. This bill would require the same agencies 
to look at the same rules again, but this time ignoring all of 
the pages that talk about how the rules would benefit 
Americans.
    Mr. Chairman, the American people want us to solve their 
problems, not waste our time with partisan posturing. Taking up 
a nonsensical message bill that stands no chance of becoming 
law just deepens and justifies their cynicism. We should spend 
our time developing real solutions to real problems. A good 
place to start would be with the recommendations of National 
Defense Magazine and holding hearings on climate change and 
cybersecurity.

    Mr. Whitfield. Thank you, Mr. Waxman.
    And that concludes the opening statements, so once again, I 
want to welcome the panel of witnesses today. We had invited 
representatives from EPA and DOE to attend but they do not have 
witnesses here. But EPA did submit a testimony, a statement and 
I would ask unanimous consent that we introduce into the record 
the EPA statement.
    [The information follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Whitfield. And at this time I would like to introduce 
members of the panel. We have Mr. Paul Cicio, who is the 
president of the Industrial Energy Consumers of America. We 
have Mr. Brendan Williams, who is vice president, Advocacy for 
the American Fuel and Petrochemical Manufacturers. We have Dr. 
William Rom, who is professor of medicine and environmental 
medicine at the New York University School of Medicine, and he 
is testifying today, I believe, on behalf of the American 
Thoracic Society. We have Ms. Rena Steinzor, who is a professor 
of law at the University of Maryland and is also president of 
the Center for Progressive Reform. And we have Dr. Anne Smith, 
who is senior vice president of NERA Economic Consulting. And 
we have Mr. Scott Segal, who is the director of the Electric 
Reliability Coordinating Council.
    So we have some real experts with us today and we look 
forward to your testimony about this legislation.
    And Mr. Cicio, I will recognize you first for an opening 
statement. Each one of you will be given 5 minutes, and there 
is a little box on the table that has green, yellow, and red, 
and red means stop. So if you all would pay some attention to 
that, we would appreciate it.
    Mr. Cicio, you are recognized for 5 minutes.

    STATEMENTS OF PAUL CICIO, PRESIDENT, INDUSTRIAL ENERGY 
    CONSUMERS OF AMERICA; BRENDAN WILLIAMS, VICE PRESIDENT, 
  ADVOCACY, AMERICAN FUEL & PETROCHEMICAL MANUFACTURERS; DR. 
    WILLIAM N. ROM, PROFESSOR OF MEDICINE AND ENVIRONMENTAL 
  MEDICINE, NYU SCHOOL OF MEDICINE, ON BEHALF OF THE AMERICAN 
 THORACIC SOCIETY; RENA STEINZOR, PROFESSOR OF LAW, UNIVERSITY 
OF MARYLAND, AND PRESIDENT, CENTER FOR PROGRESSIVE REFORM; ANNE 
    E. SMITH, NERA ECONOMIC CONSULTING; AND SCOTT H. SEGAL, 
      DIRECTOR, ELECTRIC RELIABILITY COORDINATING COUNCIL

                    STATEMENT OF PAUL CICIO

    Mr. Cicio. Thank you. Thank you, Chairman Whitfield, 
Ranking Member Rush, for the opportunity to testify before you 
and other subcommittee members.
    My name is Paul Cicio and I am president of the Industrial 
Energy Consumers of America. The IECA member companies have 
over $1.1 trillion in revenues. We have over 1,000 major 
manufacturing facilities across the country, and we employ over 
1.4 million employees. IECA supports the draft bill entitled 
``Energy Consumers Relief Act of 2013,'' because transparency 
of the cost of compliance is critically important to cost-
effective regulation. Under this legislation, in the event that 
the review of cost finds that the EPA regulation would be 
harmful to the economy, we would hope that the EPA would 
reconsider the rule and seek alternative low-cost regulation.
    IECA has three points we would like to share with you this 
morning. Point number one, the EPA should not fear transparency 
of economics of regulation. They should embrace it as part of 
their regulatory reform effort. And EPA should also embrace 
pursuit of a more accurate and less controversial method for 
calculating health benefits. Too much is at stake to not get 
these right; both must be credible.
    The EPA must be mindful that the manufacturing companies 
have a choice as to where they build their facilities around 
the world. The U.S. and its policies are in competition with 
other countries for these investments and jobs. This means that 
U.S. regulations must compete as well. That is, to regulate in 
a manner that is cost-effective and implemented in a time 
horizon that are responsible to public health but mindful of 
market realities.
    The most fundamental element is transparency of the cost of 
regulation. And in our view, the EPA scorecard is very poor. 
The EPA provided leadership decades ago in reducing emissions. 
They now need to lead again by addressing the cost and 
transparency issues. Congressmen, this is a win-win. There are 
no losers.
    Point number two, besides the cost of EPA regulations 
placed directly on our own facilities, when the EPA promulgates 
rules and costs on, for example, the electric utility industry, 
it is us consumers that pay for that. When the EPA promulgates 
rules on oil and the gas industry, it is us the consumers that 
pay for those. When the EPA chooses fuel mix strategies that 
give preference of one fuel over another, it is we consumers 
that pay for that. And there appears to be an insensitivity or 
a disconnect to this point as EPA proceeds to roll out a 
multiplicity of new regulations. Someone has to pay for these 
regulations and that someone is the industrial sector and other 
U.S. consumers.
    As the only sector of the economy that competes with global 
competition, the pass-through of these costs to us is 
significant, and it is getting greater all the time, 
continually eroding at our ability to compete and create jobs.
    Point number two, this is not 1970 when emissions were 
relatively high and significant action was needed to reduce any 
omissions. Emissions have dramatically been slashed since then 
and that is the good news. The bad news is that now that 
emissions are small, the cost of the next increment of 
reduction is very expensive, so expensive that manufacturing 
companies could be forced to make decisions on whether to 
comply or shut down facilities and move production offshore.
    The reality is that manufacturers face a significant number 
of existing, new, or proposed EPA regulations all at the same 
time, with overlapping requirements and additive and 
compounding costs. This plethora of regulations has resulted in 
business investment uncertainty.
    Point three, we encourage policymakers--all policymakers--
to be mindful of another reality: that when companies spend 
capital on regulatory compliance, it consumes capital that 
would otherwise be used to create jobs, producing manufacturing 
products and exports, both of which are desperately needed to 
revive our weak economy and job creation.
    Thank you for considering our points.
    [The prepared statement of Mr. Cicio follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Whitfield. Thank you, Mr. Cicio.
    And Mr. Williams, you are recognized for 5 minutes.

                 STATEMENT OF BRENDAN WILLIAMS

    Mr. Williams. Thank you, Chairman Whitfield, Ranking Member 
Rush, and members of the subcommittee, for this opportunity to 
be here today.
    The Energy Consumers Relief Act is a commonsense measure 
that will inject transparency and scientific vigor back into 
the regulatory process. While not stopping EPA's ability to 
regulate emissions, the legislation would inject a more 
rigorous review of the most costly regulations and foster a 
more robust, public debate about the costs and benefits of the 
proposals.
    My written testimony details some of the nebulous costly 
and conflicting regulations that fuel and petrochemical 
manufacturers are facing. These regulations pose significant 
costs often with questionable benefit and ultimately impact 
consumers. The consumer impact of regulation is where I would 
like to focus my remarks today.
    Energy is truly the lifeblood of our economy. Affordable, 
abundant supplies of energy make modern life possible and have 
made America the most prosperous nation on Earth. Abundant 
energy and a clean environment are not mutually exclusive. The 
air is cleaner today than it ever has been and it is getting 
even cleaner. EPA notes that between 1990 and 2011, emissions 
of the six principal pollutants drop 63 percent while vehicle 
miles traveled increased 94 percent and energy consumption 
increased 26 percent in that period.
    Today, emissions are so low the new requirements for 
incremental reductions become extremely costly. Given this 
reality, it is important to develop objective assessments on 
costs and energy supply impacts of additional regulations. 
Energy cost increases carry significant implications for 
consumers and our economy. Consider the following facts: every 
penny increase in gasoline prices translates into a more than 
$1 billion increase in household energy spending. And this is 
money that, as my colleague noted, consumers could spend 
elsewhere on other goods and services.
    In 2011, the trucking industry consumed more than 35 
billion gallons of diesel fuel. A .01-per-gallon increase would 
have translated into an additional $365 million annually for 
truckers. Every dime increase in gasoline or diesel prices 
sustained over a year costs domestic agriculture over $381 
billion annually. In fact, 65 percent of farmer's costs are 
dedicated to fuel, electricity, fertilizer, and chemicals.
    Increased energy costs not only affect what consumers pay 
for transportation and for operating their businesses but also 
manufactured goods. Petrochemicals are the basis for most 
consumer goods and energy represents one of the largest costs 
for petrochemical manufacturers. To highlight the significance 
of petrochemicals for consumer products, consider the 
following: an average vehicle contains almost 600 pounds of 
petrochemical derived plastics, composites, rubber coating, and 
textile products. Home electronics, such as TVs, computers, and 
cell phones contain up to 40 percent or more of plastics 
derived from petrochemicals. Nearly 14 percent of construction 
materials used in the U.S. are made from synthetic materials 
and derived from petrochemicals. Even renewable energy 
products--windmills--about 15 percent of them are derived from 
petrochemical products.
    These facts make it easy to see how energy cost increases 
have significant ripple effects throughout the economy. The 
potential for such ripple effects is why we need to ensure 
regulation takes a balanced approach and maximizes 
environmental protection without disproportionately raising 
consumer costs or sending manufacturing jobs overseas.
    The Energy Consumers Relief Act will help restore such 
balance. As previously stated, today's regulatory environment 
is characterized by costly and conflicting regulations with 
questionable benefit justifications. The legislation today 
establishes a thorough review of the most costly regulations by 
federal departments with expertise in energy economic 
ramifications of regulations. Such a structure will serve as a 
check against a potential for EPA to overstate benefits while 
minimizing costs.
    Most importantly, by requiring a report to Congress, this 
legislation will increase transparency and give policymakers 
and consumers alike the opportunity to better understand the 
tradeoffs between increased regulation and economic activity. 
Such measures will create a more balanced approach to 
environmental rulemaking that could significantly impact 
consumers and our economy.
    AFPM supports the Energy Consumers Relief Act and 
appreciate the opportunity to voice our opinion today, and I 
will be happy to answer any questions at the appropriate time.
    [The prepared statement of Mr. Williams follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Whitfield. Thank you very much, Mr. Williams.
    Dr. Rom, you are recognized for 5 minutes.

                STATEMENT OF DR. WILLIAM N. ROM

    Dr. Rom. Thank you, Mr. Chairman. Congressman Whitfield and 
Congressman Rush, I am Dr. Bill Rom. I am a professor of 
medicine and environmental medicine at New York University. I 
direct a division of pulmonary critical care and sleep 
medicine. I direct what is called the Chest Service at Bellevue 
Hospital. This is the Nation's largest and oldest public 
hospital in the country. I have done this for the past three 
decades.
    I am testifying today on behalf of the American Thoracic 
Society. It is a medical professional organization of 15,000 
doctors dedicated to protecting lung health in the U.S. and 
around the world.
    I have three important messages I would like to convey to 
the committee. First, air pollution inflicts significant health 
risks to my patients; second, reducing air pollution is good 
for public health and the economy; and third, Congress should 
let EPA do its job. As a pulmonary doctor, I spend my days 
treating patients who struggle to breathe. They have serious 
long diseases like asthma, COPD, pneumonia, and a number of 
other conditions like sarcoidosis and IPF that most people have 
never heard of. Through a combination of medications, 
interventional procedures and GC's management, I work with my 
patients to help control their lung disease. However, there is 
one thing that neither I nor my patients can control and that 
is the air they breathe, and it can be deadly.
    So let me share with you what I do on a daily basis. I am 
an attending now at the University Hospital and then after that 
I am an attending at Bellevue, and I always attend at Bellevue 
during the month of July. That is when the new interns come, 
that is when the ozone peaks, and that is when the PM 
accumulates. We have the largest emergency room in this city 
and patients are admitted from there to my service and I also 
oversee all the intensive care units.
    So I had a patient a while back during the summer. He was 
53. He had both asthma and COPD. COPD is chronic obstructive 
pulmonary disease and the chronic and the obstructive parts in 
that disease mean his lungs can't breathe well on a regular 
basis. Despite that, he went to the gym four to five times a 
week and works full-time as a computer programmer. One morning 
he walked to the bus stop near his home to go and visit a 
friend. While waiting for his bus to arrive, he stood near the 
exhaust of an idling bus for approximately 5 minutes. Soon 
thereafter, he developed the acute onset of severe shortness of 
breath and a bystander called the emergency medical services.
    In the emergency room, he was in extreme distress. He 
couldn't get air in or out of his lungs and his blood pressure 
shot up to 200/139. He was emergently intubated and admitted to 
the intensive care unit. In the ICU he required near continuous 
bronchodilators, high-dose intravenous steroids, a 
neuromuscular blockade for management of his severe 
exacerbation of asthma and COPD. He remained intubated in the 
ICU for 9 days. He stayed in the hospital for 24 days. He was 
discharged to acute pulmonary rehabilitation to regain strength 
and conditioning. Eight weeks later, he was finally able to 
return to work.
    Absent the exposure to air pollution, my patient could have 
expected to live a fairly healthy life. Instead, air pollution 
nearly killed him. His brief exposure to diesel particulate and 
gases combine with his underlying asthma and COPD led to this 
9-day intensive care stay, 24-day hospital stay with all the 
associated costs, approximately about $413,000. So these are my 
costs.
    And there are 86,000 hospital admissions per year, 86,000 
emergency room visits, 1.7 million asthma attacks and on top of 
that, 160,000 deaths. So these are my costs. But on this 
ledger, they are called benefits, but they are real costs. And 
I would just as soon not incur these costs as a physician. We 
really should prevent all of these diseases.
    So when the air pollution is bad, the above scenarios are 
repeated across the U.S. My written testimony is full of the 
research articles that show air pollution causes a host of 
adverse health effects including mortality and morbidity in the 
form of asthma attacks, heart attacks, COPD exacerbations, 
birth defects, low birth weight. Recent studies also link air 
pollution to loss of diabetes control, even in-utero exposure 
leading to cancer in children, presented this week.
    The evidence is clear. Air pollution is bad for human 
health. The research is equally clear that reducing air 
pollution is good for human health and the economy. Recently, 
EPA stated the direct benefits of the 1990 Clean Air Act 
amendments and associated programs significantly exceed their 
direct costs. And even under the most conservative cost-benefit 
analysis that assumes no mortality from ozone and particulate 
matter, the $137 billion in economic benefits of the 1990 Clean 
Air Act protections more than double the $65 billion in costs. 
If we include the mortality benefits, is a 30-to-1 ratio.
    Lastly, I would note that in the past few years the House 
of Representatives has frequently passed legislation that would 
block, weaken, or delay EPA's authority to improve our Nation's 
air quality. Often the legislation is justified on avoiding the 
economic burden of compliance costs. Such thinking is 
shortsighted and it fails to recognize the wealth of studies 
that show clean air standards actually improve our economy by 
preventing death and disease. Such thinking also fails to 
recognize that we as a society are already paying for air 
pollution indirectly through avoidable emergency room visits, 
hospital stays, missed work and school days, and death. Both 
our Nation and our economy would be better served by paying the 
compliance costs up front and reaping the benefits of a 
healthier population. Thank you.
    [The prepared statement of Dr. Rom follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Whitfield. Thank you. Ms. Steinzor, you are recognized 
for 5 minutes.

                   STATEMENT OF RENA STEINZOR

    Ms. Steinzor. Mr. Chairman, Ranking Member Rush, and 
members of the subcommittee, I appreciate the opportunity to 
testify today. My testimony makes four points.
    One, the Energy Consumers Relief Act has no basis in law or 
fact and would enable some of the largest companies in the 
world to continue making record profits at the expense of 
public health and the environment.
    Two, the real danger we face is under-regulation. In fact, 
rampant deregulation of Wall Street is the reason why we have 
hurtled into the persistent recession that has impoverished 
millions.
    Three, regulation is vital to the quality of life we take 
for granted in America. Most of the rules targeted by this bill 
were not dreamed up in the basement of EPA, by an administrator 
drunk on her own whiskey, but rather were required by the Clean 
Air Act amendments that were crafted by members of this 
committee. The beauty of the legislation from a corporate 
perspective is that it would gut the Clean Air Act, which 
remains overwhelmingly popular with the public, without ever 
mentioning its name.
    Four, Congress should focus on ways to reinvigorate the EPA 
rather than pursuing legislation that would kneecap the agency. 
The ECRA is nothing more and certainly nothing less than the 
latest attempt to shield some of the wealthiest and most 
heavily subsidized corporations in the history from the 
relatively modest cost of preventing the chronic harm to people 
and the environment caused by toxic air pollution. It would 
force a shotgun wedding between EPA, the beat cop that polices 
the most intractable sources of pollution; and the Department 
of Energy, the government's booster for energy products 
nationwide. The inevitable outcome would be a marriage made in 
hell that stymies EPA's most important efforts to carry out its 
regulatory mission, indifference to its salesperson spouse.
    The best way to think about ECRA is as a huge subsidy for 
companies that are already pocketing billions in government 
largess. The energy companies that would reap this giant 
windfall include the big five oil companies--BP, Chevron, 
ConocoPhillips, ExxonMobil and Shell--which raked in more than 
$119 billion in profits in 2012. Among the most profitable 
corporations, ExxonMobil finished at the top of the 2012 
Fortune 500 list bringing in profits of more than 41 billion. 
Chevron and ConocoPhillips finished third and fourth on the 
list, bringing in annual profits of nearly 27 billion and over 
12 billion, respectively.
    The legislation would relieve these companies from 
internalizing the high social cost of their pollution. This 
regulatory subsidy comes on top of the massive subsidies that 
highly profitable fossil fuel producers already receive. In 
2012, the big five oil companies received more than $2.4 
billion in various tax breaks from the Federal Government. The 
International Monetary Fund estimates that the fossil fuel 
industry receives more than 1.9 trillion in total global 
subsidies annually, an amount equal to 2.5 percent of the 
global gross domestic product.
    The rules in the legislation's crosshairs are among the 
most beneficial safeguards the U.S. regulatory system has ever 
produced. A 2011 report assessing the EPA's Clean Air Act 
regulations found that in 2010, these rules saved 164,000 adult 
lives and prevented 13 million days of work loss and 3.2 
million days of school loss due to pollution-related illnesses 
such as asthma and cardiovascular disease, as Dr. Rom explained 
so eloquently. Even when measured against the rubric of cost-
benefit analysis, the EPA's regulations revealed to be huge 
winners for society.
    The 2011 report on EPA's Clean Area Act regulations 
concluded that these safeguards have produced benefits worth $2 
trillion annually by 2020, dwarfing the $65 billion in 
compliance costs.
    My written testimony gets into more specific criticisms of 
the bill. It also offers some suggestive reforms for the EPA 
that would help the Agency carry out its statutory mission of 
protecting the people and the environment in a more effective 
and timely manner.
    Thank you. I would be pleased to answer any questions.
    [The prepared statement of Ms. Steinzor follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Whitfield. Thank you.
    Dr. Smith, you are recognized for 5 minutes.

                   STATEMENT OF ANNE E. SMITH

    Ms. Smith. Mr. Chairman and members of the subcommittee, 
thank you for your invitation to participate in this hearing. I 
am Anne Smith, an economist and senior vice president of NERA 
Economic Consulting. My testimony is my own and does not 
represent any position of my company or its clients.
    If EPA and DOE are to be required to estimate employment 
impacts of energy-related regulations, it would be wise also to 
require that their estimates be made using analysis methods 
that are credible and suited to the scale of the regulation in 
question. For major energy-related regulations an analysis that 
accounts for secondary or ripple effects through the full 
economy is the only type that can be expected to provide a 
balanced understanding of overall economic impacts.
    How has EPA been making its employment impacts estimates so 
far? In reviewing how EPA has been estimating employment 
impacts for its air regulations, I have identified several 
areas of concern, particularly with regard to its current 
practices. First, for air regulations released from 1997 
through 2010, EPA rarely provided any employment impact 
estimates. In the few cases that it did, EPA used methods that 
ranged from a single sector or partial approach to a full 
economy general equilibrium approach. I found no apparent 
pattern to explain when the full economy approach was used or 
was not used, but the full economy approach is clearly within 
the EPA's toolkit.
    In 2011, EPA started to routinely provide employment impact 
estimates for its new regulations. However, these more recent 
estimates are not credible. They are being calculated in an 
inappropriately simplistic manner that uses a cookie-cutter 
multiplier. EPA's formula cannot even be called an analysis. 
This is what EPA is doing: EPA takes its estimate of the cost 
of complying with the regulation, states it in millions of 1987 
dollars, and then, to estimate the number of affected jobs, 
just multiplies that cost by a single constant factor. That 
factor happens to be 1.55.
    So what does that mean? Well, you can do the math yourself. 
Because the multiplier is positive, this formula guarantees 
that EPA will estimate an increase in jobs for every one of its 
new regulations no matter what sectors or types of regulation 
the regulation may affect, no matter what years the regulation 
may take effect in. In fact, the higher the cost of the 
regulation, the greater will be the job increase EPA projects 
for it.
    Furthermore, most of the regulations the EPA has applied 
this simplistic approach to are the very types of rules that 
are warranting a full economy approach. A full economy analysis 
is warranted for high-cost regulations that can affect prices 
of widely used commodities. Energy-related regulations over $1 
billion would fall into this category. Also, the Utility MATS 
Rule, the Portland Cement MACT Rule, the Cross-State Air 
Pollution Rule, and the Industrial Boiler MACT Rule all fall 
into that category. Yet, all of those rules were instead run 
through EPA's simplistic job impacts multiplier, which 
predictably estimated that each one of them would increase jobs 
and, at the most costly of them, the Utility MATS Rule, would 
increase jobs the most.
    I have done my own full economy analysis of several of 
those recent rules. I used NERA's NewERA Model, which is a full 
economy general equilibrium model, but I assumed EPA's own 
estimates of those rules' compliance costs. I ran EPA's costs 
through a full economy analysis. And for each of those rules, 
the full economy analysis projected large negative employment 
impacts in direct contrast to the positive job increases EPA 
had reported.
    For example, for the Utility MATS Rule, EPA had reported an 
increase in employment earnings equivalent to 8,000 jobs. But 
the full economy analysis of that rule projected a reduction 
equivalent to 70,000 jobs. Now, most of those negative 
employment impacts from the full economy analysis were in 
sectors that do not face any compliance obligations under the 
MATS rule, but they are sectors which purchase the regulated 
sector's higher-cost product, electricity in this case.
    Partial analysis methods simply cannot identify these 
secondary or ripple effects. Simply put, because commodity 
price effects can cause a significant portion of a regulation's 
impacts, high-cost regulations should be analyzed with a full 
economy general equilibrium approach. This is not a tall order. 
The past shows EPA already has the tools and capabilities to do 
it. Thank you.
    [The prepared statement of Ms. Smith follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Whitfield. Thank you, Dr. Smith.
    Mr. Segal, you are recognized for 5 minutes.

                  STATEMENT OF SCOTT H. SEGAL

    Mr. Segal. Thank you, Mr. Chairman, members of the 
committee. Thanks for the opportunity to testify. My name is 
Scott Segal. I am a partner at the law firm of Bracewell & 
Giuliani and I also direct the Electric Reliability 
Coordinating Council, which includes some of America's top 
power producers that are working to ensure that consumers 
across the United States have access to reliable, affordable, 
and environmentally responsible power.
    Look, EPA has a tough job of balancing America's desire for 
environmental protection with its demand for affordable and 
reliable power. The Agency has issued a number of environmental 
rules in the past 2 years, is working on others that, at times, 
seem inconsistent with this balance and more of these types of 
rules are imminent.
    You have heard the names of all of these rules. We don't 
have time necessarily to get into every one of them. But Dr. 
Smith talked about the MATS Rule, also the State or overturned 
actually Cross-State Rule, the changes to ambient air quality 
standards, water rules, the status of coal ash, Regional Haze 
rules; the list goes on and on.
    You know, if you do work for those that utilize coal, you 
almost get the impression that the Agency doesn't like coal. It 
is funny how that works since every rule I have named directly 
deals with coal. Worst yet than these rules, is the capacity of 
the Agency to engage in litigation with environmental 
organizations, settle that litigation prematurely on terms that 
are favorable to expansion of the Agency's power, and also the 
use of punitive enforcement strategies, and even direct 
opposition to the findings of state regulators who are 
themselves competent regulators who are in fact closer to the 
problems they seek to regulate.
    Taken together, these power sector rules impact about 
780,000 megawatts of gas, oil, and oil-fired generation. 
Through the year 2025, the most recent estimates show that 348 
of the 1,300 coal-fired electric generator units are likely to 
close in 38 States, representing about 15 percent of the total 
coal fleet. The reasons for those closures, I think, are clear 
to all of us. The industry faces a combination of low natural 
gas prices and inflexible regulation.
    Merely losing 56 gigs, a midrange scenario in line with 
what some industry has estimated but also with the FERC--the 
Federal Energy Regulatory Commission--itself estimated, just to 
give you a sense of perspective is the equivalent of wiping out 
all the power generation for the States of Florida and 
Mississippi. But coal still has an important role to play in 
America's energy future. As Tom Fanning at the Southern Company 
recently remarked, the U.S. still is the Saudi Arabia of coal 
with 28 percent of coal's reserves.
    While the shale revolution is arguably the most 
transformative energy event in our time, recent reports have 
indicated that the most obvious projects were switching from 
coal to natural gas have already been undertaken. Many gas 
plants are running at or near capacity. They are running flat 
out, meaning that additional demand, assuming the economy ever 
recovers, additional demand may have to once again be met by 
reliable coal production. But as these rules increase the 
regulatory costs, those are passed on directly to consumers in 
the form of higher prices. Relying on fewer instead of more 
options puts us in danger of paying more for electricity, which 
affects the economy as a whole.
    You would think that the bill before you today is targeted 
only at the stock prices of energy companies, at least to hear 
some of its critics. That is not what triggers this analysis. 
It is the cost to consumers. And it should come as no surprise 
that higher electricity prices are destructive to our economy. 
Consider, residential consumers, small businesses, hospitals, 
schools, farms, industrial operations all depend on reliable 
and affordable electric power. Higher prices disproportionately 
impact vulnerable individuals, including the poor, the elderly, 
and those on fixed incomes. One-quarter of Americans report 
having problems paying for several basic necessities; 23 
percent have difficulty in paying their utilities. That is who 
is damaged when we don't fully take into account the consumer 
impact of higher electricity prices.
    By the way, we have heard discussions of higher gasoline 
prices and I would also point out that almost half of our 
refineries' operating costs, about 43 percent actually, is for 
energy and fewer refineries have the capacity to cogenerate 
appreciable amounts of electricity on their own, meaning higher 
electricity prices equals higher gasoline prices as well.
    Our schools--99 percent of school superintendents found 
direct budget impacts as result of increased energy costs 
associated with maintaining the building spaces. Worse yet, 
there is no alternative for a school superintendent other than 
to fire teachers to pay for more expensive energy.
    Healthcare--EPA's rules also adversely affect public health 
in three ways: by increasing the cost of medical care and 
treatment, by imposing real threats on human health by 
suppressing economic growth and the improved health that it 
brings, and by focusing on expensive rulemakings with little 
incremental benefit when those resources, if more sensibly 
deployed, could save many more lives.
    The bottom line, today's legislation is an important first 
step in the direction of addressing consumer impact and prices. 
It is not a gutting of the Clean Air Act. The power remains 
with the Environmental Protection Agency, not the DOE. The DOE 
makes an analysis. It is up to the EPA to decide whether to 
take that analysis seriously and address those energy consumer 
price end points. If they do so, the rule may proceed. So the 
power remains with the EPA to take consumer prices seriously. 
They should do that, and they should adopt this legislation.
    Thank you.
    [The prepared statement of Mr. Segal follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Whitfield. Well, Mr. Segal, thank you. And thank all of 
you for your testimony.
    At this time, we will open it up for questions and I 
recognize myself for 5 minutes of questions.
    As I had indicated in my opening statement, the Society of 
Environmental Journalists recently issued a statement saying 
that EPA is one of the most closed, opaque agencies in the 
Federal Government. And I think all of us are very proud of the 
fact that the Clean Air Act has been unusually effective. EPA 
has done a good job of administering the Clean Air Act and 
America does not have to take a backseat to any country in the 
world in being focused on a clean environment. And we all could 
recite statistics that reflect the success of the Clean Air 
Act.
    But I also think we have an obligation and responsibility 
when we have an economy that is having great difficulty of when 
we come out with new regulations that cost billions of dollars 
that we also explore fully the impact that it has on the 
consumers and on society in general. All of us have a 
responsibility and a concern about people who suffer breathing 
problems. And that is why I think we can be very proud of the 
fact that we have made great progress.
    I know Dr. Burgess may talk about this a little later, but 
we are part of the Montr AE1eal Protocol because of the Clean 
Air Act. And because of the Montr AE1eal Protocol, Primatene 
Mist is not available over-the-counter anymore to people who 
have asthma. And as a result, their direct costs have increased 
dramatically because it is simply not available anymore.
    And, Dr. Smith, I was really interested in your statement 
in which you said you did an analysis, and if I understood you, 
it appears that the more cost associated with an EPA 
regulation, according to their analysis, automatically there 
are going to be more jobs created. Is that what you said or----
    Ms. Smith. Yes, that is the formula EPA is applying right 
now.
    Mr. Whitfield. And would you elaborate on that a little 
bit? I mean, that does not sound exactly correct but----
    Ms. Smith. Well, it is illogical and that is why I say this 
is not an appropriate method in the first place. It is based on 
some earlier studies that looked at spending on worker 
payments--payments to workers--in industries, in the '80s who 
were poor industries, who were reporting off of their 
environmental spending. And the finding was that there was not, 
across all four of those industries, a significant change in 
the amount of spending on workers. But that did not find 
increased jobs; it just found that there was a change in the 
spending on workers in those four sectors in the '80s.
    Now, EPA is taking that summary statistic that says, well, 
the number was about zero--was about 1.55 on average--and just 
applying it to every new regulation that comes down the pike, 
regardless of its relationship to the original study, most of 
which have no relationship to the original study.
    Mr. Whitfield. So any regulation that has additional cost, 
according to the EPA, will create jobs?
    Ms. Smith. As long as they continue with this method of 
doing their analysis which is, as I said, not really an 
analysis at all. It is just a multiplication that is guaranteed 
to provide positive jobs through more cost.
    Mr. Whitfield. Right.
    Mr. Cicio, you had--just a minute here. Well, I am not 
going to ask you a question. I will just make one other 
comment.
    I have been so upset about the stimulus money being 
directed to so many green energy projects and I can't help but 
I just want to share that right across the border from my home 
county in Kentucky in the State of Tennessee, 2 years ago a 
company called Hemlock Corporation announced that they were 
building a $1.2 billion plant that would employ 1,000 people 
and about 2,500 construction jobs to make polysilicon chips for 
the solar industry. In the State of Tennessee, there was a big 
press conference and everyone announced how this was the future 
for America, green energy, which we all support.
    Unfortunately, in January of this year after constructing 
this plant for 2 years at a cost of $1.2 billion of which there 
was government money involved also, they announced that they 
were walking away from this plant. They had hired 300 employees 
to prepare it for opening, and the terminated all of those 
workers. They are shuttering the plant and that, in my view, 
along with Solyndra and others, is an indication of how we in 
the government tried to mandate what was going to happen and 
the marketplace was not ready for it.
    So I see my time is expired, and Mr. Rush, I recognize you 
for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman. And Mr. 
Chairman, in due respect to the author of the bill, Mr. Cassidy 
of Louisiana, I must say that this bill defies common sense. 
Everybody in this room has probably, sometime during the course 
of their lives, written out pros and cons listing in order to 
make important decisions. This bill will require the federal 
decision matrix to consider just half of this list, a pro and 
con list when evaluating public health and environmental rules. 
The bill requires that the Department of Energy to analyze all 
of the potential negative effects of a proposed rule and 
determine whether the rule would have a significant adverse 
effect on the U.S. economy.
    Now, Ms. Steinzor, under this bill would DOE weigh both 
sides? Will they weigh the pros and the cons of a proposed 
rule?
    Ms. Steinzor. Congressman, I think that they would focus 
primarily on the costs that are allegedly imposed by the 
regulation. And their analysis would come on top of an 
extensive analysis by EPA that is supervised by the Office of 
Information and Regulatory Affairs at the White House, that is 
redrafted, that is hundreds of pages long, scrutinized by 
economists. The Department of Energy already has an opportunity 
to comment on every rule that EPA prepares. And again, I would 
stress all of these rules are statutorily mandated. They don't 
come out of the right ear of the EPA administrator. They are 
all required by Congress.
    Mr. Rush. So this bill requires a skewed analysis that 
completely ignores the benefits of the EPA's public health 
rules?
    Ms. Steinzor. Yes.
    Mr. Rush. As a matter of fact, have you looked at the bill? 
Do you see the word benefit at all in the bill?
    Ms. Steinzor. I do not. And bills like this act as if rules 
were sweeping the money into the center of the room and setting 
it on fire. They absolutely ignore the benefits to patients 
like Dr. Rom's that he explained so well. The incredible 
economic costs, not just in medical expenses, but in days lost 
from work, staying home with a sick child, being unable to be 
productive is an enormous burden on society. And those are the 
benefits of trying to control pollution would be to avoid all 
of that harm.
    Mr. Rush. And matter of fact, the types of rules that this 
bill would target have tremendous benefits to public health, 
the environment, and often consumers. For example, EPA's 
greenhouse gas standards for vehicles are projected to save 
families more than $1.7 trillion in fuel costs and reduce 
America's dependence on oil by more than two million barrels 
per year beginning in 2025.
    Ms. Steinzor, that is just one example. How do the benefits 
of some of the EPA's other recent rules compare to their cost?
    Ms. Steinzor. Well, as Congressman Waxman explained in his 
opening statement, the ratio between the cost and the benefits, 
the benefits exceed the cost by several orders of magnitude in 
almost all of these rules. That is what makes it so ironic. 
These rules are a great bargain for the American people and 
that is what makes it so ironic, that they have come under this 
attack. They have been years in the making. They were required 
initiated under the 1990 Clean Air Act amendments. We are now 
in 2013. These rules have been bounced around to court and 
back, to the Agency to the White House, to Congress, and 
finally, after all this time, they are beginning to get to the 
end the runway and be ready to take off and now we want further 
delay, further analysis, further number-crunching, further 
handwringing, and it is just not what you intended.
    If Congress doesn't like these results, it should take up 
the Clean Air Act, but it doesn't want to do that because that 
would be very unpopular with the American people.
    Mr. Rush. Thank you, and I yield back, Mr. Chairman.
    Mr. Whitfield. At this time I recognize the gentleman from 
Texas, Mr. Hall, for 5 minutes.
    Mr. Hall. I thank you, Mr. Chairman. And I guess I would 
like to start by not just thanking you, but thanking the folks, 
as you have. And some of the proposals in the past 3 years such 
as the Coal Ash Rule and the Cross-State Air Pollution Rule 
have been very detrimental to energy companies and thrust and 
jobs and consumers back in my district in northeast Texas.
    I certainly admire Scott Segal. I have known him and know 
the people he associates with, Searcy Bracewell, and paired now 
with the former mayor of New York. They do a good service for 
us and that is why I want to direct my question to you. I am 
very pro-fossil fuels, I am pro-energy, pro-any source that 
might keep us from having to rely on countries that we really 
couldn't rely on if circumstances changed just a little bit.
    But I want to talk about the compliance time on this of the 
EPA--I am talking about anything bad I can think of about EPA 
because I think they are the worst enemy of any nation's 
opportunity to get ahead and provide the energy that we have 
and that we need. And we ought to be selling energy rather than 
buying energy.
    So I guess what I would ask you is what your concern is 
about the compliance timelessness that I talked about for EPA's 
energy-related regulations that they are requiring to happen in 
just a few months, something that would have taken probably 4 
or 5 years and reconsidering it and then coming back with 
something just as ridiculous. That took us to the courts, and 
the courts from this Texas operation have recognized they are 
wrong and the lack of science that the EPA relied upon.
    And I thank Bill Cassidy for bringing this and I agree with 
every word he said as we opened up here. But what I am 
concerned about is what you think about the timelines and not 
providing enough time for you to delegate, plan, or implement 
these rules, and what effect is that going to have on electric 
reliability? Just in general if you could give that to us.
    Mr. Segal. Mr. Hall, thanks for your kind words. I would 
say on the question of timelines, you would do well to be very 
concerned about it. I mentioned briefly in my remarks about 
this sue-and-settle phenomenon. And unfortunately, timelines 
are often not dictated or at least not honored from a statutory 
perspective but come to the floor for the EPA from settlements 
that they reach with environmental organizations where they 
don't let other members of the regulated community into those 
settlement discussions. And so what ends up happening is a 
very, very sort of backwards-oriented and unrealistic timeframe 
for implementation of the rules.
    You know, we have heard a lot today about what a good 
bargain all these rules are. I am kind of amused to hear that 
they are both a great bargain for industry and at the same time 
industry is the opponent that keeps us from having more of it. 
You know, industry folks should come to these hearings more 
often. They would know about great investment opportunities in 
major EPA rulemakings.
    The fact of the matter is, despite the obvious costs 
outlined with respect to these rules, EPA always claims its 
regulations are net beneficial to society. That is like it is 
not even worthy of discussion. In the case of the Mercury and 
Air Toxics Rule, for example, a rule that costs $10 billion, 
none of the benefits came from mercury. If there were truth in 
advertising on rules, EPA would constantly be in front of the 
Federal Trade Commission explaining why they call their rules 
what they call them and why they put in their analyses of 
benefits what they put in them.
    More than 90 percent of the benefits of this rule are co-
benefits that come from reducing particulate matter, which as 
we heard testimony, particulate matter is serious business. 
However, that 90 percent reduction comes from reducing 
particulate matter below the level that EPA has already said is 
highly protective of human health and the environment with a 
substantial margin of safety for susceptible subpopulations of 
the very sort of person that Dr. Rom was talking about.
    EPA inaccurately attributes the benefits to current rules, 
like the Cross State Rule Mr. Hall was talking about, benefits 
that have been achieved by previous rules. It is like a poker 
game with one stack of chips and they keep moving the chips 
from rule to rule to rule claiming the same benefit. That is 
how Enron got into trouble. But the----
    Mr. Hall. In closing, just I know you agree with me that 
this bill is going to provide transparency and protects the 
consumer and protects jobs, and I am very happy that we are 
looking at it today, and I thank you.
    I yield back. Our time is up.
    Mr. Whitfield. At this time I recognize the gentleman from 
California, Mr. McNerney, for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman, and thank the 
witnesses for your thoughtful testimony this morning.
    It continually amazes me that our friends on the other side 
of the aisle think of the EPA as the devil because before the 
EPA came along, we had the Love Canal, we had the Cuyahoga 
River catching on fire, and look, China doesn't have an EPA. 
Would you rather live in Beijing and breathe that air? And so I 
mean it produces a good service for country.
    Now, it is important to have a balance, I understand that. 
But my concern with this bill is that it could indefinitely 
delay or block critical public health and environmental 
protections for analysis of questionable value, in my opinion, 
by the DOE.
    Now, Mr. Williams, in your testimony this morning you said 
that the bill would inject transparency and scientific rigor 
back into the regulatory process, but I am skeptical of that 
claim. The bill requires the DOE to draft an inherently biased 
analysis that presents only the costs of the EPA rule--and that 
has already been brought out this morning--but does not address 
the benefits. The DOE is not really capable of that at this 
point. It would have to develop a new capability.
    Ms. Steinzor, would you consider the analysis required by 
the bill to be transparent and rigorous?
    Ms. Steinzor. I would not, Congressman. I think the 
analysis required by the bill would have the economists staring 
into a crystal ball in an effort to run this string of 
regulatory impact out into--it is almost like a butterfly flaps 
its wings in Rio de Janeiro and there might be an effect in 
Tuscaloosa. That is what is wrong with Dr. Smith's very 
superficial criticisms of what goes on in EPA analyses. You 
can't predict job impacts to the nth degree, and that is what 
people are insisting that the Agency do. It already does 
extraordinarily rigorous analysis. There are a series of laws--
--
    Mr. McNerney. What exactly--so you are going to describe 
some of the analysis that is required by the EPA already?
    Ms. Steinzor. Yes, very extensive analysis of both costs 
and benefits. And those analyses, again I need to get a life 
very clearly, but I spend many, many hours reading hundreds of 
pages filled with formulas and we love the magical numbers. We 
think that they make these estimates precise and reliable, and 
in fact, the extensive analysis that is already done, for 
instance, on guesstimates. It is just one example. Dr. Rom 
mentioned hospitalization for asthma. You know, in one of the 
cost benefits of the Clean Air Act, the EPA awarded $330 for 
that event. And I am sure that Dr. Rom would laugh at the idea 
that his patients go to the hospital and get the kind of 
treatment he was describing for $330.
    So all of these analysis understate the benefits, overstate 
the costs already. The Agency has spent close to 30 years 
trying to get these rules out and the pending legislation would 
delay us another few decades which would be to the detriment of 
the public.
    Mr. McNerney. Thank you, thank you. Mr. Segal, do you 
believe that well-crafted regulations protecting air and water 
quality could result in innovation and job creation?
    Mr. Segal. Yes, I do. I absolutely do. In fact, the bill 
does not--there is a rumor floating around here that the bill 
does not account for benefits. No, the bill focuses very 
narrowly on these energy endpoints, but the bill also talks 
about shifts in employment. That is what you, Congressman, are 
talking about, because when we have a regulation, we may well 
take the compliance cost money from that regulation, spend it, 
and then if I make a scrubber for example, or I innovate a 
scrubber, that will create jobs. But the question is, the money 
that I took and spent on the scrubber and on the innovation 
related to the scrubber, if it were deployed in more productive 
mechanisms, what would the job multiplier be in that instance? 
And also----
    Mr. McNerney. So by more productive you mean--you said it 
would be deployed in more productive measures.
    Mr. Segal. Let me give you an example.
    Mr. McNerney. OK.
    Mr. Segal. Let's say I run a power company, all right? I 
won't stretch credulity too much, but let's say I run a power 
company. If I don't spend the money on the scrubber, perhaps I 
can spend it on a way to improve the energy efficiency of my 
power plant, presumably if the EPA doesn't sue me under a new 
source review----
    Mr. McNerney. But it would have the same out--if you 
increase efficiency----
    Mr. Segal. Yes, and that would not only reduce emissions, 
but it would reduce the cost of power, and then let's say my 
community, let's say, a community in northern California or 
something like that would receive lower cost of electricity, 
more small businesses, more energy-dependent businesses like 
florists and grocers and things like that could put on the 
extra job or two, that is real job creation and that is the 
multiplier effect of lower-cost electricity.
    Mr. McNerney. Well, I would like to continue the discussion 
but my time has run out, Mr. Chairman.
    Mr. Whitfield. Yes, the gentleman's time has expired.
    At this time I recognize the gentleman from Nebraska, Mr. 
Terry, for 5 minutes.
    Mr. Terry. Thank you, Mr. Chairman.
    And this bill seemed rather simple and straightforward 
until the discussions occurred up here and I want to ask the 
author. Under current law right now, the EPA's only--the only 
thing they can do is look at the health benefits. That is the 
whole basis of it.
    Mr. Cassidy. Yes, that is current law.
    Mr. Terry. And are you striking that provision under this?
    Mr. Cassidy. No, I am not.
    Mr. Terry. I am noticing that language.
    Mr. Cassidy. No, I am not.
    Mr. Terry. So the benefits under health are already written 
in the law, and so what you are doing is saying that we need 
the other side of the cost-benefit analysis in determining the 
cost. Is that right?
    Mr. Cassidy. A little transparency so that if someone loses 
their job because of the regulation, they actually understand 
what thought process went into it.
    Mr. Terry. Yes, so this is establishing a cost benefit. The 
benefits are already written in there or mandated that that be 
in there. And that has been part of our frustration here. And 
we mentioned the Mercury Rule. Their modeling showed tremendous 
benefit from reduction in mercury poisonings and injuries, but 
when you would subpoena medical records from a 60-mile radius 
around a coal-fired plant, you wouldn't find any mercury 
poisonings ever reported to the hospitals or physicians. Well, 
I won't say every--boy, University of Maryland, I am not too 
impressed right now.
    But I want to go in and talk about that I think in a cost-
benefit analysis, you actually have to discuss--and I want to 
talk to Mr. Cicio--because both Republicans and the Democrats 
are working on job creation and particularly in manufacturing. 
And we have what we are calling the Nation of Builders where we 
are bringing in manufacturers in all different industries--big, 
medium, and small, international, local--and it is interesting 
because all of them have said that energy prices are a key 
component. It is a major input cost, and right now in the 
United States, we have an advantage, particularly with natural 
gas, to being affordable and reliable. So in our manufacturing 
plan, that is going to be there.
    The Democrats have what they call Make it in America, which 
part of their four-point plan is affordable electricity, 
affordable energy. And as I understand, an increase of 1 
percent in electric costs to a manufacturer in total can be $9 
billion out of the manufacturing. Could you comment? Is that 
accurate?
    Mr. Cicio. Yes, Congressman. In fact, I can verify that 1 
percent does equal a $9 billion cost on the manufacturing 
sector for our electricity.
    Mr. Terry. And then, define for us what that means to 
manufacturing.
    Mr. Cicio. Manufacturing competes globally. As I said 
earlier my testimony, we are the only sector that competes 
globally. And we have tough competition, particularly with the 
kind of products that we produce. Almost all manufacturers 
around the world can meet high-quality standards, and so the 
only thing that differentiates us from our global competitors 
is cost. And so your point about today, at this very moment, we 
have lower natural gas prices that is giving us a relative 
competitive advantage.
    But the other point associated with this bill is that 
policymakers and EPA need to be mindful and remember that all 
of the cost of regulations on all our producers of energy, 
whether it be electricity, natural gas, oil, what have you, all 
of those costs when you are regulating those industries get 
passed on to us either directly or indirectly. And this weighs 
on this ability to compete.
    Mr. Terry. Well, if we were successful in raising electric 
prices to the point where it is not economic to manufacture, 
will we be lowering the CO<INF>2</INF> emissions globally?
    Mr. Cicio. No. No, of course not. It is the same way with 
other emissions as well. We simply shift the manufacturing 
facility offshore. Someone will produce that and it will be 
produced offshore emitting albeit greenhouse gases----
    Mr. Terry. Probably more.
    Mr. Cicio [continuing]. Or any other emission offshore 
rather than here.
    Mr. Terry. So finding that line is important to actually 
reducing global emissions.
    Mr. Cicio. Well, absolutely. And our point of why we are 
here today is we are not saying don't regulate; we are not 
saying we don't want clean air----
    Mr. Terry. I agree.
    Mr. Cicio [continuing]. We are saying do it better, do it 
more cost effectively, and that is a win-win.
    Mr. Terry. I will interrupt just for my closing comment. 
And, you know, we have been accused on the side of the aisle of 
wanting to completely contaminate the entire universe when what 
we are arguing for was a difference between 3- to 5-year 
implementation to make it more palatable and use technologies 
that don't even exist today.
    I yield back.
    Mr. Whitfield. The gentleman's time has expired. At this 
time I recognize the gentleman from California, Mr. Waxman, for 
5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    The proponents of this bill argue it will enhance 
transparency and provide rigorous analysis of EPA rules. But I 
don't look at it that way. Mandating a one-sided analysis that 
ignores all of the benefits of EPA's public health rules is not 
going to inform anyone. The real effect of this bill is to 
indefinitely delay and potentially block crucial public health 
rules.
    Ms. Steinzor, this bill empowers the Department of Energy 
to effectively veto EPA rules, isn't that right?
    Ms. Steinzor. Yes, I agree with you.
    Mr. Waxman. Does the Department of Energy have the 
expertise to make the economic determinations this bill would 
require it to make?
    Ms. Steinzor. The Department of Energy does not have that 
expertise and one of the----
    Mr. Waxman. I agree with you.
    Ms. Steinzor. Yes.
    Mr. Waxman. Now, under this bill, EPA cannot finalize a 
rule until the Department of Energy completes its analysis. Ms. 
Steinzor, does this bill establish a deadline for DOE to act?
    Ms. Steinzor. No, it does not.
    Mr. Waxman. So are there reasons why DOE might not be able 
to complete its analysis in a timely way?
    Ms. Steinzor. Lack of staff and expertise.
    Mr. Waxman. So important public health rules can be 
indefinitely delayed under this bill, isn't that right?
    Ms. Steinzor. Yes.
    Mr. Waxman. Dr. Rom, what are the real world impacts of 
indefinitely delaying EPA air pollution rules?
    Dr. Rom. More hospitalization----
    Mr. Waxman. Put your mike on.
    Dr. Rom. More hospitalizations, more emergency room visits, 
increased mortality, enhanced morbidity, and this is nationwide 
and it is over time, and it is actually not improving.
    Mr. Waxman. Justice delayed is justice denied.
    Dr. Rom. Yes.
    Mr. Waxman. Regulations delayed could be help to people 
denied. Dr. Rom, you are a pulmonologist. Over your career, I 
assume you have seen thousands of patients and had to review 
potential treatment options for a variety of conditions. How do 
you present treatment options to a patient? Do you review the 
benefits of a treatment as well as the potential risks?
    Dr. Rom. Yes. When we treat asthma, for example, the 
standard treatment is a bronchodilator. Over time, these 
bronchodilators have become more selective, fewer side effects. 
Now, we have inhalers that have particles instead of 
chlorofluorocarbons. We have highly selective inhalers so we 
don't have to use things like Primatene Mist from decades ago, 
and we present these options to the patients. We now have 
steroid inhalers----
    Mr. Waxman. So you have a lot more advances that--members 
of this committee will remember a debate we had over Primatene 
Mist. And from what I was hearing, the profession didn't think 
Primatene Mist was the best device to use. In fact, there were 
some downsides to it.
    Dr. Rom. Yes, there are now----
    Mr. Waxman. I just want a yes or no on that----
    Dr. Rom. Yes.
    Mr. Waxman [continuing]. Because it's just a side issue. 
Would you say to a medical professional who only presented the 
downsides of a potential life-saving treatment is doing an 
ethical job? This is a risk that you would take if you get this 
treatment for your health.
    Dr. Rom. Yes----
    Mr. Waxman. This is the cost you may have to bear to get 
this treatment.
    Dr. Rom. Yes, but we like to prevent asthma exacerbations 
by having patients not only take their treatments, but to have 
clean air.
    Mr. Waxman. So it is not ethical for a doctor to make a 
healthcare decision with a patient using the lists of negatives 
without talking about the positives. Is that fair?
    Dr. Rom. Yes.
    Mr. Waxman. When we go to a doctor or consult with our 
accountant or call our realtor, we want to hear the full story. 
We want to know the pros and cons before we make important 
decisions.
    This bill sets a different standard for critical public 
health and environmental standards to be determined under law 
by the Environmental Protection Agency. DOE could veto an EPA 
rule based on skewed analysis of those rules. That doesn't make 
sense from a public policy perspective, but it seems to me more 
likely when we mandate a skewed analysis of important EPA rules 
by requiring DOE to pretend that the rules provide absolutely 
no benefits, this bill really leads to indefinite delays or 
blocking of those rules based on an absurd analysis.
    This is a bill that we shouldn't be spending our time 
talking about because it just doesn't make sense even though we 
are being told it is common sense. This is not the way I 
learned common sense and it is obviously geared to stopping 
important benefits from being provided to the American people.
    I thank you all for being here. I think you have all wasted 
your time just as we did, but you have given us perspectives on 
it and I appreciate it.
    Mr. Whitfield. At this time I recognize the gentleman from 
Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and I 
want to thank the panel for being here. I really do think that 
the information we are getting here is very, very valuable for 
this committee and for this Congress.
    In my district alone, I have about 60,000 manufacturing 
jobs. And I spend all of my time when I get home, on the road 
talking to those manufacturers. And when I am out there, the 
number one issue I hear from them always, the top issue, are 
regulations coming from Washington and how it is hindering 
their businesses. And these are the folks out there that are 
the job creators, the entrepreneurs that are out there making 
sure that their friends and neighbors have jobs that can put 
food on the table for those kids that they have and send them 
to school.
    And when we are talking about the number one regulator out 
there that affects folks in my district, the one group I always 
hear from all the time is the number one agency, it is always 
the EPA. And there is not one group or business that I ever go 
out to see that would ever say that they are not for clean air 
and clean water.
    And so we want to make sure that we have those jobs in the 
future because, again, with the 60,000 jobs that I have, the 
national manufacturers gave me a chart not too long ago that 
shows that we have about 1.66 million manufacturing jobs on 
this committee alone. And that is what grows this economy.
    And I would like to ask Dr. Smith, I can start with you, 
and I know we have been having some of these questions going 
back and forth, but you testified that the effects of the EPA's 
major regulations can have regulatory impacts that ripple 
through the full economy. Can you elaborate on that?
    Ms. Smith. Yes. When a regulation is highly costly and the 
people in the sectors that have to comply with that regulation 
end up spending more money for the compliance, by and large the 
cost ends up either being passed through to their customers in 
higher prices of the products or there is international 
competitiveness effects where the affected sectors simply end 
up leaving the country and doing their production overseas.
    Either way, it has built up trickle-down effects to the 
other sectors and the consumers in the economy. So prices rise, 
for instance, for oil products or for electricity in this 
economy, there will be effects downstream for the consumers of 
that electricity. And that is where you start to see these 
economic impacts from regulation spreading, inevitably 
spreading across into other sectors of the economy. And that is 
why the full economy analysis is appropriate in situations like 
this.
    Mr. Latta. Thank you. And again, looking at my district in 
Ohio, where we have so many manufacturers out there 
manufacturing jobs, we have got to move that product, either 
bring that product going out or we are going to have to have 
the material coming in. The National Association of 
Manufacturers estimates that the cost of just six EPA rules 
affecting the energy sector could exceed $100 billion annually 
and threaten more than two million jobs.
    Mr. Williams, I have got to ask you. How are the refinery 
and petrochemical manufacturing sectors being impacted by those 
rules?
    Mr. Williams. Sure. We are impacted a number of ways. 
Obviously, we are impacted in the cost of producing the 
petroleum products--gasoline jet fuel that runs this country 
but also as energy consumers. So obviously, as Mr. Segal 
earlier stated, when electricity--for a refinery, other than 
crude oil costs, the second-largest cost is usually utility 
bills. So when something impacts electricity, it impacts us as 
an energy consumer. And then it impacts us, obviously, in the 
cost of producing fuels for the general public, fuels and 
petrochemicals for the general public.
    I had an example in my testimony of Tier 3 regulations. We 
reduced sulfur and gasoline 90 percent from 2004 to 2007, from 
300 parts per million down to 30. Now EPA is looking to move 
from 30 down to 10. It is going to be a similar cost and a lot 
of the stated benefit is minimal and even questionable.
    Mr. Latta. If I could interrupt you, do you have any 
estimates of what that is going to cost the consumer out there 
with it going on from Tier 2 to Tier 3?
    Mr. Williams. Well, if you just look at the production 
costs, an estimate we have is that it is a $10 billion upfront 
cost with about $2.4 billion annual operating cost. If you are 
going to break that down into cost in cents per gallon, it is 
somewhere in the .06 to .09 per gallon range.
    Mr. Latta. Because I have seen some estimates, I believe, 
from the EPA that they are saying it is much, much lower. So 
you dispute that number?
    Mr. Williams. Yes. There are other studies out there that 
indicate they are around a penny a gallon. What those studies 
do is they actually look at the Nation as one big refinery and 
try and apply reductions to basically either the Nation as a 
whole or specific regions when that is not how our industry 
works. Every single refinery is different and complex. The 
numbers I stated were from a model that actually assesses every 
single individual refinery and assesses cost via that 
methodology, so----
    Mr. Latta. Thank you very much.
    And Mr. Chairman, my time has expired and I yield back.
    Mr. Whitfield. At this time I recognize the gentleman from 
New York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Dr. Rom, you make a compelling case that people should 
limit their exposure to particulate matter and to ozone. The 
legislation we are considering doesn't appear to repeal current 
standards, but it certainly prevents EPA from strengthening 
them. Are the current standards adequate, or can further 
benefits be achieved?
    Dr. Rom. That is a very good question. The standards for 
ozone have been lowered by President Bush, Bush's EPA from 84 
to 75. And we have recently looked at what would happen if we 
would net the 75 ppm standard. There would be about 2,000 
deaths averted across the country, heavily in the eastern third 
of the country. We have also looked at the proposed 70 ppm 
ozone standard, and it would avert about 4,000 deaths if we 
lowered it to 70. So the standard now of 75 that we are not 
even meeting doesn't protect health. And going to the lower 
standard would give us a greater benefit.
    For PM2.5, we are at 35 for a daily and we have been at a 
15 microgram per meter cubed annual. That has recently been 
proposed to go down to 12.
    If you look at the mortality from PM2.5, there are 
mortality and morbidity effects at this proposed standard, and 
some most studies are now showing even effects lower than the 
standard. Of concern is lung cancer. There has recently been a 
study of over 100,000 people who were never smokers looking at 
lung cancer. There are 1,000 lung cancers in this cohort and 
the lung cancer increase started at 8 and going up. And we are 
now just trying to reach a 12 microgram standard.
    So to try to derive health benefits with these standards, 
we are discovering health defects at or even below these 
proposed standards. So if we are going to protect--and 
particularly susceptible populations--we need to get a 
protective factor in there.
    Mr. Tonko. And my understanding is that these are 
pollutants, especially ozone and fine particulate matter, can 
travel significant distances from their sources. So is this a 
problem only for people who live in our urban cores or should 
there be a concern about suburban areas and rural areas that 
are impacted by the same pollutants?
    Dr. Rom. Yes. There is a considerable transport of 
particles; however, there are what we would call hotspots. And 
what we have recently observed is that highways or where there 
is heavy traffic is a hotspot. So living near a road will 
increase your risk for developing asthma or having a mortality 
affect. And roads are across rural counties as well as urban 
counties. So air particulates have a large distance that they 
travel, particularly from coal-fired power plants so that to 
control these, such ideas and concepts as the Interstate Rule 
was promulgated. It is difficult to develop these rules because 
they are always challenged in court, but the eastern third of 
the country and particularly the coastal regions of California 
have both ozone and PM2.5 exposures that don't meet the 
standards, and it is a challenge to develop public health 
policies to meet the standards. We are getting there.
    Mr. Tonko. Thank you. Thank you, Dr. Rom.
    And Dr. Steinzor, you have a table in your testimony 
listing a number of EPA rules that apply to the energy sector. 
They all appear to be rules that would be issued under the 
Clean Air Act. As you point out in your testimony, energy 
touches many factors in our society. The oil and gas industry 
already has exemptions from a number of our environmental laws 
including the Safe Drinking Water Act, the Clean Water Act, the 
Clean Air Act for gas production with hydrofracking, for 
example. Are there rules issued under other statues that would 
also be subject to this law?
    Ms. Steinzor. Rules issued under the Safe Drinking Water 
Act, the Clean Water Act, yes.
    Mr. Tonko. And other statutes, though, that would be 
affected by this law?
    Ms. Steinzor. Yes. Potentially because the legislation says 
any regulation that costs $1 billion, but it doesn't give it 
time period for that. So if a regulation cost $100 million a 
year, it would be subject--any regulation under any law that 
could remotely affect energy producers would be covered by this 
legislation even if the cost were substantially less than a 
billion because we continue to multiply into the future.
    Mr. Tonko. Thank you. My time has expired. So with that, 
Mr. Chair, I will yield back.
    Mr. Whitfield. The gentleman's time has expired.
    At this time I recognize the gentleman from Louisiana, Mr. 
Cassidy, for 5 minutes.
    Mr. Cassidy. OK, thank you.
    Dr. Rom, I am also a doctor, I am also an academic, and so 
I kind of know the field from which you come. Here is the 
National Academy of Sciences discussion of something that EPA 
put out. In roughly a 1,000 page draft reviewed by the present 
committee, little beyond a brief introductory chapter could be 
found on the methods for conduct the assessment. The draft was 
not prepared in a consistent fashion. It lacks clear links to 
an underlying conceptual framework, and it does not contain 
sufficient documentation on methods and criteria for 
identifying evidence. I could go on. Would that get published 
in a peer-reviewed journal for which you were the editor? Yes 
or no?
    Dr. Rom. Probably not.
    Mr. Cassidy. Yes, probably not.
    Dr. Rom. The National Academy of Sciences has looked at a 
number of----
    Mr. Cassidy. If I may, I have limited time. Probably not. 
And yet, this was a draft that was going to incredibly impact 
the economics of certain industries.
    Next, you mentioned how there is an impact of PM2.5. By the 
way, this bill is not about that. It is about transparency so 
that there could be an economic effect. I think I know, 
although you are a pulmonologist and I am a gastroenterologist, 
so I go here a little bit a fearing. Don't we know that 
socioeconomic status actually affects the incidence of lung 
cancer as well?
    Dr. Rom. Yes.
    Mr. Cassidy. So if we are able to say that there is this 
transparent process that there is going to be a cost of blue-
collar jobs, folks are going to lose their jobs, their families 
will be less well-off, et cetera, wouldn't it be fair to say 
that that could potentially also have an impact upon the future 
prevalence of lung cancer among that population?
    Dr. Rom. Well, the effects of tobacco and----
    Mr. Cassidy. Yes or no. I mean, just because we know that 
economics has an impact, and we know that people----
    Dr. Rom. But much larger than SES or socioeconomic status.
    Mr. Cassidy. But it is still a factor. So when Mr. Waxman 
spoke about how we want to speak about not just the cost but 
also the benefits, but if you are an oncologist, you not only 
want talk about the potential upside but also the potential 
downside. I can say that confidently. We all should do that 
ethically. So if we have a law which purports to give all this 
great health benefit but we don't go into the fact that it 
could cost a blue-collar worker her job, we are not really 
talking about the downside, are we?
    Mr. Cicio, I am struck that in our current economic 
environment our major challenges creating jobs for blue-collar 
workers who have traditionally been employed in manufacturing, 
construction, and mining. You speak about energy-intensive 
enterprises moving back to the United States recreating blue-
collar prosperity, which we seem to have almost ceded to other 
countries. Is it fair to say that when natural gas went to $13 
per Mcf, there was a negative impact upon blue-collar 
prosperity?
    Mr. Cicio. When prices of natural gas rose starting from 
about 2000 to 2008 to the point that you mentioned, in that 
time period, we lost about 5 million manufacturing jobs. We 
shut down almost 45,000 manufacturing facilities. So the impact 
of energy directly impacted and contributed to job losses.
    Mr. Cassidy. So the point of principle that this bill is 
about creating transparency for the economic effect of EPA 
regulations and not about doing away with their ability to 
promote health benefits, it is fair to say as a principle, if 
you increase the cost of energy, there is a direct economic 
affect upon blue-collar manufacturing jobs, which by the way we 
have also learned increases their prevalence of ill health. 
Fair statement?
    Mr. Cicio. I would agree.
    Mr. Cassidy. Mr. Segal, do you agree with Dr. Smith? It 
seems almost fantastical to me that the more something costs 
the economy, the more jobs that are created, in which case we 
should just regulate ourselves to prosperity, right? Now, Mr. 
Waxman said there is no common sense there. I don't see the 
common sense in the greater the regulatory burden, the more 
prosperity we have. Heck, we should regulate our conversation 
right now. Throw away the First Amendment.
    Mr. Segal. Well, I quite agree. It is kind of a through-
the-looking-glass kind of world. The more expensive something 
is the cheaper it is for the economy.
    Mr. Cassidy. Now, you also make a point that there is--if 
you are creating jobs, oftentimes there is job shift. I think 
of the vulnerability of these blue-collar workers. You may be 
losing that blue-collar job while you are creating the job for 
an EPA bureaucrat. Is that a fair statement?
    Mr. Segal. It may be an EPA bureaucrat or it may even be 
somebody in another country.
    Mr. Cassidy. Isn't that something? That somebody in another 
country, because as Mr. Cicio says, it is going to be 
manufactured someplace, the question is where. All we are about 
is letting that blue-collar worker who doesn't have a lobbyist, 
who doesn't have somebody up here with tassels on their shoes 
and to be able to understand the impact of rules and 
regulations upon them.
    I yield back. Thank you.
    Mr. Whitfield. The gentleman yields back.
    At this time I recognize the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, and thank you for 
calling the hearing on the Energy Consumers Act of 2013. Many 
of the rules that this bill aims to stop are rules that 
directly affect both my constituents and companies that employ 
my constituents. They are rules that I, too, seriously have 
wondered how they got developed. I would love to support the 
bill that would require the Department of Energy to have an 
official consulting role similar to OMB on the drafting of EPA 
rules where appropriate.
    For example, I was frustrated to hear that DOE's concerns 
about grid reliability were not heeded by the EPA or considered 
during the Utility MACT rulemaking. With that said, I am also 
shocked that this has set precedent that where one department 
has veto power over another department, particularly an 
appointee in an agency that is part of Cabinet.
    I would like to ask some questions. And frankly, my 
colleague from Louisiana, we lost chemical jobs over the years 
simply because our price of natural gas went up to $12.50, $13 
and North Sea gas is much cheaper. Thank goodness our economy 
has changed that so every plant in my district, I think, is 
expanding jobs because of our success, at least in Texas, of 
the low cost of natural gas.
    But now to my questions. Do any of you know whether there 
is precedent for this type of policy where there is another 
agency actually gets to check their work or say yes or no? I 
want somebody telling us what it is going to cost and DOE is 
that agency. But I have never known where one agency could just 
say, no, you can't do this. Is there any precedent for that? 
Scott, or anyone else? I know we have dealt with these issues 
for a couple of decades.
    Mr. Segal. Well, I will take a crack at it. I mean, the 
relationship--and I know, I think Professor Steinzor also has 
some stuff in her testimony on this--but the relationship 
between the Office of Information and Regulatory Affairs and 
OMB, as kind of a regulatory traffic cop, is a similar 
relationship.
    Mr. Green. But even they only check what, for example, in 
this case EPA or some other agency does.
    Mr. Segal. Right.
    Mr. Green. You know, and theirs is fairly limited. I would 
be more interested in forcing agency cooperation, looking at 
the cost and the benefits, and have somebody check their work.
    Mr. Segal. Let me say two things on that. The first is the 
DOE really doesn't veto the bill. I mean, Mr. Waxman is saying 
that DOE would sit around stroking its mustache and eliminating 
rules. That is not how this bill works in my understanding. The 
DOE performs an analysis. Now, the Agency--the EPA that is--
could take that analysis and say, OK, we are going to address 
those energy endpoints. We are going to address those. But the 
power to address those remains with the EPA. I mean, the DOE 
just performs the analysis.
    But I do get the point that you are making, and I guess I 
would say maybe there is--I have heard a couple of things in 
discussion back and forth today, which sounds like there could 
be areas of common ground on legislation like this if there 
were some alterations made or some additional thinking put into 
it. So, I mean, what I am hearing is this is a significant 
issue; these energy endpoints are significant issues. The bill 
is a great step in the direction of addressing those issues. 
And so I hope you guys do something.
    Ms. Steinzor. The bill says notwithstanding any other 
provision of law, the administrator of EPA may not promulgate 
as final an energy-related rule that is estimated to cost more 
than 1 billion if the Secretary of Energy determines 
significant adverse effects to the economy. So that language 
says you may not put the rule out provided that the Department 
of Energy has told you not to. And I don't know of any 
precedent that puts one agency in this kind of charge.
    Mr. Green. Yes, and Mr. Segal is right that we work a lot 
with OMB but they really don't do their own, and I would like 
to have somebody in the place of doing an economic analysis.
    And frankly, the EPA, that is not their job. Our laws have 
said that EPA looks at the environmental impact and how they 
can--but I also want somebody to say, OK, let's see how we can 
afford it other than going to the courthouse where it ends up 
being very expensive for both the government and the litigants.
    Dr. Smith, in your testimony you testified EPA should 
employ a cumulative impact study when preparing these rules. Do 
other agencies and departments utilize this type of study in 
their rulemaking? And if they do, how often does it compare to 
EPA?
    Ms. Smith. Well, there aren't too many other agencies that 
have done analyses that compared to EPA's. But EPA itself has 
done these kinds of comprehensive analyses. They have done them 
in the past. They have tools that are ready to go, and the only 
question is why they haven't been using them. My feeling is 
that because there is no requirement to consider the costs 
whatsoever under the Clean Air Act, that defies common sense, 
too, that we are imposing our entire Clean Air Act without any 
consideration of costs. And that has led to the kind of 
inappropriate, non-credible ``economic estimates'' that are 
coming out of the Agency at this time, when they fully well 
could do a full economy analysis of their own.
    Mr. Whitfield. The gentleman's time has expired.
    Mr. Green. Five minutes goes by so fast, Mr. Chairman.
    Mr. Whitfield. At this time, I recognize the gentleman from 
West Virginia, Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    I have got a series of questions for several of you that, 
if I could, start with Ms. Steinzor. You open your remarks with 
some pretty scathing challenges against some of the oil 
producers, energy producers, by going over their profit margin, 
their profits that they make. I think you had talked about, 
according to your testimony, $119 billion in profits. Is that 
correct?
    Ms. Steinzor. Yes.
    Mr. McKinley. OK. What level would be appropriate?
    Ms. Steinzor. What level of profits?
    Mr. McKinley. Yes. If they are making around 15 percent 
profit, you are coming at this with a pretty strong view. 
Should they only be making 5 percent?
    Ms. Steinzor. Well, if I were in charge, they would be 
giving a much larger share of those profits to the same blue-
collar workers that people have expressed so much concern 
about.
    Mr. McKinley. In other words, OK, so it has nothing to do 
with energy or for health. It is just that you say they 
shouldn't have this money. So am I correct?
    Ms. Steinzor. No. I----
    Mr. McKinley. I don't want to dwell on it a lot because I 
know that this money goes into pension funds and retirement 
accounts for people, so there is some value to having a 
corporation make some money. I am just curious why----
    Ms. Steinzor. And I am not saying corporations should not 
make money. I am saying that these are some of the most 
enriched companies in the country that are up here----
    Mr. McKinley. And ConocoPhillips is a--they make 15 percent 
profit. I don't know that that is exorbitant given such a 
diversity that they earn from chemical manufacturing to oil 
production and energy production. I am just curious. You seem 
to be willing to attack the profit margins of these companies 
and--OK, that is fine. I have run into people like you every 
once in a while.
    But let's go to Dr. Rom. You know, you made a very poignant 
issue earlier when you talked about the individual that was 
standing there, next to a--for 5 minutes. Was he your patient 
or something like that?
    Dr. Rom. I didn't see him in the emergency room but I saw 
him----
    Mr. McKinley. So he wasn't your patient?
    Dr. Rom. Yes, for a period of time.
    Mr. McKinley. I don't want to make a big deal of it, but 
did you ever have any children that ever went outside without a 
coat on and they were sick? They got sick from being outside 
or--I am just curious. Did this person have a level of personal 
accountability? If he had a pulmonary problem and stood there 
in front of an exhaust pipe for 5 minutes that you referred to, 
didn't he have a--just to step back? Did you ever tell him that 
or did you say let's blame the government or let's blame that 
bus for running there?
    Dr. Rom. Well, he was intubated at that point----
    Mr. McKinley. OK.
    Dr. Rom [continuing]. So I couldn't ask him those types of 
questions.
    Mr. McKinley. I think it was a very----
    Dr. Rom. But I think the rate of exposure is the important 
thing.
    Mr. McKinley. And I think it is important, and I am with 
you on that. I think you made a good point but I also think 
there is a question about--I want to go into more on what you 
were talking about----
    Dr. Rom. I agree with you on personal responsibility. We 
give people medicine----
    Mr. McKinley. OK. You and others have testified time and 
time again here before us about asthma and other health-related 
issues, but can you help me, Doctor? How do you differentiate 
someone getting asthma or some kind of airborne disease from 
being outdoors from when they are indoors? If they spend 90 
percent of the time indoors, why do we always keep attacking 
our outdoor air quality when it only represents about 10 
percent of the time of the air we are exposed to? Do you think 
we should be looking at indoor air quality?
    Dr. Rom. Oh, absolutely.
    Mr. McKinley. OK, but that isn't where--the EPA doesn't 
have any authority to do that, and I am not sure that I want to 
get them in my house. When someone comes down with an asthma 
attack, can you differentiate, you can tell me, they get that 
because they were riding in their car outdoors or when they 
were inside their house on a couch that was giving off 
formaldehyde?
    Dr. Rom. Those are very good points, Congressman. Indoor 
air pollution is a real problem. The WHO this week said there 
are 3.5 million deaths from indoor air pollution and 3.3 
million from outdoor air pollution, so they are almost equal 
across the globe. In this country----
    Mr. McKinley. But the EPA says the indoor air quality might 
be as bad as 100 times worse in indoor, and on any given day, 
five times worse.
    Dr. Rom. Indoors----
    Mr. McKinley. How do you differentiate it?
    Dr. Rom. Yes. Indoors----
    Mr. McKinley. Why are you attacking one group and not the 
other?
    Dr. Rom. Indoors with a room like this where we have 
central air conditioning, the ozone is virtually zero. So we 
tell our patients to stay indoors on bad ozone days. But the PM 
and the sulfur oxides and NOx get indoors as well as outdoors. 
So we have problems with the other pollutants.
    Mr. McKinley. OK. I think we have run out of time. If you 
could give me some other information about how you 
differentiate, it would be very helpful. Thank you.
    Mr. Whitfield. The gentleman's time has expired.
    At this time I recognize the gentleman from Kansas, Mr. 
Pompeo, for 5 minutes.
    Mr. Pompeo. Thank you, Mr. Chairman. You know, I am puzzled 
how this discussion evolves. We have a piece of legislation 
here proposed by Dr. Cassidy that is about information, it is 
about disclosure, it is about policymakers having knowledge 
about what a particular federal action, whether that be a 
statute in this case, regulatory--what costs it would impose. 
And I want to go down the entire panel, and this is just a 
simple yes-or-no question in the fine tradition of Mr. Dingell. 
Yes or no, do you think federal policymakers, regulators ought 
to know and communicate--to your constituents, Mr. Cisco; your 
patients, Mr. Rom--the cost of a regulation?
    Mr. Cicio. Yes.
    Mr. Williams. Yes.
    Dr. Rom. Yes.
    Ms. Steinzor. Yes.
    Ms. Smith. Yes.
    Mr. Segal. Yes.
    Mr. Pompeo. Great, we have consensus. Mark the time. That 
is what this legislation is about. This is about identifying 
costs. I assume everyone would also think that on the benefits 
of a regulation as well. Everyone is nodding their head so we 
have consensus there as well. I mean, we start here and we have 
a member talking about climate change and the fact that last 
year's temperatures are proof of climate change. I made that is 
just--you can't let these facts go--I mean these intensely 
unscientific statements go unchallenged.
    Mr. Segal, we end up talking about this health benefits. 
You had mentioned this and if you could just give me 30 more 
seconds, blackouts, brownouts, electric reliability risk, and 
its relation to the thoracic health of Dr. Rom's patients.
    Mr. Segal. Well, sure. There are several different ways in 
which it is related. But directly the cost of electricity is a 
major cost factor for hospitals. So if you increase electricity 
cost, you increase the cost of providing medical care at the 
hospital. And, in fact, what we call electronic medicine these 
days is heavily dependent on affordable and reliable power. But 
then, in an indirect sense, I think we have all established, or 
at least many of us have agreed, on the notion that high 
electricity prices make industry less competitive, make 
gasoline more expensive, and as a result, have a negative 
impact on employment.
    And employment is--great research done by Dr. Harvey 
Brenner at Johns Hopkins estimates the amount of a percentage 
increase in unemployment of the amount of actual increase in 
mortality and morbidity. And that is not taking into account, 
frankly, in EPA's benefits analysis. See, that is an indirect 
cost so they don't take that into account. So they will cook 
the books in the other direction but they won't take into 
account these macroeconomic impacts on health.
    Mr. Pompeo. Yes. I am certainly worried about cooked books. 
I am even more worried that there is no analysis----
    Mr. Segal. Yes.
    Mr. Pompeo [continuing]. Being done. They are simply not 
even opening the books or attempting to prepare the books or 
even considering cost.
    One last point of cleanup. Dr. Rom, you made a statement 
about ozone--that 75 parts per million, you said it saved 
certain lives if we want to 70, is that right? Do I have that 
right?
    Dr. Rom. That 75, it is between 1,500 and 2,000 lives that 
you will save if you are meeting that standard. We are 
currently above the standard.
    Mr. Pompeo. Got it. More lives if we want to 70?
    Dr. Rom. Four thousand at 70. And that was----
    Mr. Pompeo. How about at 60? More lives at 60?
    Dr. Rom. Double.
    Mr. Pompeo. Awesome. How about zero? More lives still?
    Dr. Rom. Background is probably in the 30 to 40 range----
    Mr. Pompeo. There we go. We get perfection. Background 35. 
More lives still saved if we get from enforcing 75 to 70 and 
then we ultimately get to 35, more lives saved, I assume?
    Dr. Rom. When you are at background, you are at background, 
so I can't really say----
    Mr. Pompeo. But it is better than 70. You would rather be a 
background than at 70?
    Dr. Rom. Yes.
    Mr. Pompeo. Yes. When I hear folks say--sometimes folks who 
think this kind of legislation makes sense exaggerate to--I 
think it is silly to make statements about perfection and 
background. I think they are not even worth talking about. I 
mean, it is silly. So I think we all have an obligation to be 
straightforward about what is possible and the real cost 
associated with those things without saying hey, we are going 
to kill people if we don't go do this. I think it is 
disingenuous. I think it doesn't serve the public interest very 
well and I just hope we will all refrain from that. I yield 
back.
    Mr. Whitfield. The gentleman yields back. At this time I 
recognize the gentleman from Illinois, Mr. Shimkus, for 5 
minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. And I am going to be 
quick because I know the bells have rung and there are probably 
a couple of more members that want to also ask questions. I do 
appreciate the panel.
    Listen, we are legislators. The way a bill becomes a law is 
there is an idea--Mr. Cassidy has one--and we debate it, we 
move it, and it becomes law. And it changes the dynamics that 
will help both sides and the disparaged colleagues who are 
bringing legislation in good faith is just unfortunate because 
it just frustrates me that we don't have to stoop to that.
    And Dr. Rom, I applaud the profession. I love people in the 
healthcare sector. They are servants. They do great work. But I 
also am concerned about a mayor who can try to ban the Big Gulp 
doesn't have clean air emission buses like natural gas or 
biodiesel transport systems that would help alleviate some of 
that issue. That would not be an issue if it was a natural gas 
bus. So I am sure there are some there but--I would just add on 
this, this is the question. New source review is a public 
policy by this country that says that if we are going to 
retrofit manufacturing facilities or power plants with new 
generators more efficient, maybe it doubles the efficiency, 
then the power plant has to go through a whole new permitting 
aspect on their environmental regs.
    So I just ask this question. If we know that these 
generators can double the efficiency and the power plant is 
meeting current air standards--and so you are going to get more 
electricity output almost lowering the price in half--does it 
make sense--if it is meeting the current environmental 
standards, does it make sense to force the industry to reapply 
for all the air permits? And we will just go left to right and 
then I will be done and then we can move time to----
    Mr. Cicio. No, it doesn't and that is why this legislation 
is needed to identify what the costs are so that if the costs 
are high, then hopefully, it will give the EPA an option to go 
back and look at alternative, less costly options.
    And along with this question you asked I would like to 
address Congressman Green's point. If there isn't a precedence, 
there needs to be a precedence because the EPA is not an agency 
with expertise in the energy area. The rules that the EPA is 
dealing with are so energy-intensive-related that they need 
help from the Department of Energy to make sure that they get 
it right.
    Mr. Williams. I would agree with Mr. Cicio and your 
statement and it really points to the fact that, oftentimes, 
EPA in particular looks at these things in silos and gets to 
some of the regulatory complex I talked about in my written 
testimony, an example, I mentioned Tier 3 earlier. We have a 
regulation that requires us to take more sulfur out of gasoline 
even though we reduced it 90 percent. That is going to increase 
GHG emissions 1 to 2 percent. And then we also have EPA's GHG 
regulations under the PSD provisions and facing NSPS GHG 
relations. At sometime in the future EPA has announced that. So 
it highlights your point exactly.
    Dr. Rom. Yes. I would point out that for transparency EPA 
generally is willing to listen to a power plant company or 
manager to discuss multi-pollutant controls in NSR----
    Mr. Shimkus. And not to cut you off, this is current rules 
and current laws that we apply by now that they are not. 
Obviously, they force people then, to go through the old 
permitting process if they are going to bring a new generator 
online. It is just the current law and it is crazy. It makes no 
sense. But that is current. Ma'am, no comment?
    Ms. Steinzor. I think it makes perfect sense.
    Mr. Shimkus. OK, that is fine. Dr. Smith?
    Ms. Smith. It serves as a hindrance towards efficiency 
improvements.
    Mr. Segal. For once, my law degree maybe trumps an M.D. 
This is a legal program and it gets the incentives exactly 
backwards, Mr. Shimkus. It prevents efficiency improvements and 
even prevents pollution prevention, even though that is 
supposed to be an explicit exception.
    Mr. Shimkus. Exactly, thank you. I yield back.
    Mr. Whitfield. At this time I recognize the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    The time is limited so I will have to be brief. I agree. 
The whole idea of this bill is so that the EPA can take a look 
at it and say, OK, maybe we need to find a less costly way of 
doing this if it is a good thing to do. But more importantly, I 
think we ought to be looking at those estimates, knowing that 
the EPA can consistently--in just the short time that I have 
been here the last 2 \1/4\ years, I haven't seen a thing yet, I 
think, the EPA has gotten the numbers right on. We may disagree 
on policy but I at least would like to have the numbers be 
close to reality. They are not there, which is why I think it 
is part of the reason that we have this bill, have somebody 
besides the EPA taking a look at these issues. I for one 
believe that that responsibility rests here in Congress.
    When it comes to the arguments and people say there is no 
precedence for this or there is no precedence for the Act under 
which we are talking. There was no precedence for the Clean Air 
Act in the first place. So under that argument, we should never 
have had this bill in the first place. And I would have to 
direct that to my friend, the law professor because, as you 
know, this country is about starting things and doing things a 
different way than the rest of the world. Otherwise, we 
wouldn't have a democratic republic form of government because 
we were the first ones in the world to have that with the 
nature--recognizing the city state of Athens and some other 
minor experiments in that.
    But from a nation of this size, we were the first to have a 
democratic republican form of government. I think it is a great 
way to go and I think we should go there. But I will tell you 
one of the problems that I see from this testimony today and 
from the questions that I hear is that we actually had a member 
here say today something about this would hinder everyday 
decisions. A billion dollars in Washington is considered an 
everyday decision. Well, before I was here, I came from the 
Virginia legislature and the last year I was in the Virginia 
legislature, our entire budget was less than $40 billion. To 
me, a billion-dollar decision is not an everyday decision and 
that is the reason we need this bill.
    I don't understand these folks who don't want to have 
Congress getting more information and have us taking more 
responsibility. You know, the people elected us to be 
responsible for these things. And coming up with a new bill, a 
new idea to put checks and balances into the system, not to say 
we don't do something that is good, but to put checks and 
balances there at that billion-dollar level. When that is 
unreasonable, it is clear we have a problem in Washington and I 
think this bill will help fix that.
    Mr. Whitfield. The gentleman yields back.
    At this time I recognize Mr. Olson for 5 minutes. We have 6 
minutes left on the floor for a vote.
    Mr. Olson. I thank the chair and welcome to the witnesses. 
I know we are running short on time but Texans can always find 
time to brag about the Lone Star State. So I would like to 
remind my colleagues that my State was the fastest-growing 
State in the union the last 10 years. People from all over the 
country were flocking to Texas for four reasons: our income 
tax, zero; commonsense regulations; right-to-work state; and 
cheap, reliable energy.
    One of the biggest challenges my State faces in the future 
is reliable energy. ERCOT, who controls power generation for 
about 90 percent of my State, has said we need five more power 
plants, large ones, coming online by 2014 or we risk having 
another power crisis. If we have a summer heat wave like in 
August of 2011, we will have rolling brownouts and blackouts 
again.
    EPA's war on coal has stopped two new power plants from 
being built: Las Brisas and White Stallion along the Gulf Coast 
there by Corpus Christi and Bay City.
    My question is for you, Mr. Segal. Can you talk about the 
reliability issues you see coming? Are my home State's 
challenges the exception or the rule?
    Mr. Segal. No, sir. They are not the exception, although 
Texas faces a particularly onerous situation, particularly with 
the amount of manufacturing assets we have in refining and in 
chemicals, et cetera, that the entire rest of the country 
relies upon for their manufacturing. Look, prior to those rules 
being laid down by the EPA, our friends over on the Senate side 
spent 7 months trying to figure out if EPA had even talked to 
FERC about the electric reliability impact. I would like to 
read their conclusion. ``Instead of taking the questions and 
concerns seriously, the EPA largely ignored requests for the 
Agency to work closely with FERC and reliability experts to 
identify potential reliability risks and then amend the rules 
to lessen those risks,'' very similar to what your bill would 
do.
    Indeed, in recently released internal emails, FERC 
employees expressed frustration with trying to work with EPA 
noting, ``I don't think there is any value in continuing to 
engage EPA on these issues.'' They had no interest in trying to 
adjust reliability on a priori basis.
    Mr. Olson. And that makes my State's crisis acute.
    Mr. Williams, Mr. Cicio, would you like to add anything to 
Mr. Segal's comments?
    Mr. Cicio. I am glad you brought this up. I have worked in 
the manufacturing sector for 42 years, my entire life, and I 
can confidently say that there is greater concern about 
electric reliability by manufacturers than ever before, and it 
is because of the EPA rules on the power sector. And it is a 
prime example of the EPA not having the expertise to deal with 
the entire direct and indirect implications of their actions.
    Mr. Williams. I would agree with Mr. Cicio and note that, 
as I mentioned earlier, refiners other than crude oil costs, 
electricity is their second-largest cost. The same applies for 
petrochemical manufacturers. And if there are reliability 
issues, they are going to significantly impact our sector and 
our ability to make the products and make this country run.
    Mr. Olson. One question, Mr. Williams. How would this bill 
have helped if it had been law when EPA got in and destroyed 
our flexible permitting system? Remember they came in, rolled 
in, 17 years of precedence over on the Clinton Administration, 
the Bush Administration, the first years of the Obama 
Administration, threw it out and the court, the 5th Circuit 
finally had to overrule them. But how would this bill have 
helped that situation, and what is the damage that has been 
done? Have we recovered yet?
    Mr. Williams. Well, the flex permit issue is a great issue 
because EPA officials had told people in our industry, yes, it 
worked you just didn't do it the way we wanted you to do it, 
which required folks to go back to the drawing board and de-
flex a lot of their facilities.
    And it goes back to the point I made about how this bill 
would help. This bill actually, as many members have 
highlighted today, add more transparency to the process. It 
would allow the Department of Energy to take an energy impact 
economy-wide look at how all these different regulations fit 
together and how the benefits and the costs are assessed, and 
in some cases, how the costs aren't assessed.
    I mentioned the conflicting regulations with Tier 3 and 
greenhouse gas. As before, there has been a lot of talk about 
PM. The Tier 3 rule also talks about addressing PM. EPA, as was 
earlier mentioned, just finalized a PM standard that they say 
was protective of the public health and environment. The PM 
analysis and Tier 3 did not look at that. It looks at in silos. 
So how do we know where the PM benefit is actually coming from?
    So these are just examples of oftentimes the fact that 
these regulations happen in a silo and there are implications 
that aren't considered when EPA is going through their 
analysis. This bill would help because the Department of Energy 
would certainly prevent against the fox-guarding-the-hen-house 
scenario for lack of a better analysis.
    Mr. Olson. My time is going up instead of going down so I 
yield back.
    Mr. Whitfield. The gentleman's time has expired.
    Mr. Rush. Mr. Chairman?
    Mr. Whitfield. Yes?
    Mr. Rush. Mr. Chairman, I ask for unanimous consent to 
submit the letter for the record from the Natural Resource 
Defense Council addressing this concern with getting the 
Consumers Relief Act.
    Mr. Whitfield. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Whitfield. I would also like to enter into the record 
this press release from the Society of Environmental 
Journalists.
    [The information appears at the conclusion of the hearing.]
    Mr. Whitfield. Also, I made a statement that the U.S. was 
the number one oil producer in the world. Actually, we are the 
number one natural gas producer in the world. We are third in 
oil and they anticipate we may be number one in 2018. So I want 
to correct that.
    Also, I just want to clear up briefly, as result of our 
last hearing, Mr. Rush, it was your understanding that I had 
agreed to a hearing on climate change, which if I led you to 
believe that I think I was mistaken. However, having said that, 
I personally have talked to our staff. While we have different 
priorities, many on your side view climate change as the most 
important issue. We believe jobs, the economy, and some other 
things are more important. But our staffs will be working 
together to try to develop a format to move forward to address 
some of your concerns on this issue.
    Mr. Rush. Thank you, Mr. Chairman. I guess I kind of don't 
know where we are at because I was assured--I thought that we 
had a hearing scheduled, a definite hearing scheduled. But as 
long as we are proceeding in that direction, I guess we have to 
go along with it.
    But Mr. Chairman, I don't think that we have to decide 
between climate change and jobs. I think that is not the issue 
here. The issue is whether or not we are going to have 
scientists and climatologists before this committee to offer 
expert opinion. Thank you.
    Mr. Whitfield. Thank you. The record will remain open for 
10 days, and I want to thank you for your time. We appreciate 
your testimony and expertise. And with that, this hearing is 
adjourned.
    Mr. Rush. Thank you, Mr. Chairman.
    Mr. Whitfield. Thank you.
    [Whereupon, at 11:52 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
